<html>
<title> - DISCUSSION DRAFTS ADDRESSING HYDROPOWER REGULATORY MODERNIZATION AND FERC PROCESS COORDINATION UNDER THE NATURAL GAS ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 DISCUSSION DRAFTS ADDRESSING HYDROPOWER REGULATORY MODERNIZATION AND 
                  FERC PROCESS COORDINATION UNDER THE 
                            NATURAL GAS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

                           Serial No. 114-40
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               ____________
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
96-986                          WASHINGTON : 2016                         
                    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  
                   
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
                                 
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
                                 
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   156

                               Witnesses

Paul R. Lepage, Governor of Maine................................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................
Ann F. Miles, Director, Office of Energy Projects, Federal Energy 
  Regulatory Commission..........................................    13
    Prepared statement...........................................    15
    Answers to submitted questions...............................
Donald F. Santa, President and CEO, Interstate Natural Gas 
  Association of America.........................................    74
    Prepared statement...........................................    76
    Answers to submitted questions...............................
Carolyn Elefant, Member of the Board, The Pipeline Safety 
  Coalition, Principal, The Law Offices of Carolyn Elefant.......    88
    Prepared statement...........................................    90
John Collins, Managing Director of Business Development, Cube 
  Hydro Partners.................................................    97
    Prepared statement...........................................    99
Richard Roos-Collins, General Counsel, The Hydropower Reform 
  Coalition......................................................   111
    Prepared statement...........................................   113
    Answers to submitted questions...............................
Randy Livingston, Vice President, Power Generation, Pacific Gas 
  and Electric Company...........................................   121
    Prepared statement...........................................   123
John J. Suloway, Board Member, National Hydropower Association, 
  Principal, Water and Power Law Group, PC (On Behalf of the 
  Hydropower Reform Coalition)...................................   130
    Prepared statement...........................................   132

                           Submitted Material

Discussion draft on FERC Process Coordination \1\................     3
Discussion draft on Hydropower Regulatory Modernization \2\......     4
Statement of the Edison Electric Institute, submitted by Mr. 
  Whitfield......................................................   158
Statement of the American Public Power Association, submitted by 
  Mr. Whitfield..................................................   159
Statement of Trout Unlimited.....................................   162
Statement of the Modesto Irrigation District and Turlock 
  Irrigation District of California..............................   167

----------
\1\ Available at: http://docs.house.gov/meetings/IF/IF03/
  20150513/103443/BILLS-114pih-DiscussionDraftonFERCProcess.pdf.
\2\ Available at: http://docs.house.gov/meetings/IF/IF03/
  20150513/103443/BILLS-114pih-
  DiscussionDraftonHydropowerRegulatoryModernization.pdf.

 
 DISCUSSION DRAFTS ADDRESSING HYDROPOWER REGULATORY MODERNIZATION AND 
          FERC PROCESS COORDINATION UNDER THE NATURAL GAS ACT

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Olson, Barton, 
Shimkus, Pitts, Latta, Harper, McKinley, Griffith, Johnson, 
Long, Ellmers, Mullin, Hudson, Rush, McNerney, Tonko, Green, 
Sarbanes, Loebsack, and Pallone (ex officio).
    Staff present: Nick Abraham, Legislative Associate, Energy 
and Power; Charlotte Baker, Deputy Communications Director; 
Will Batson, Legislative Clerk; Leighton Brown, Press 
Assistant; Allison Busbee, Policy Coordinator, Energy and 
Power; Patrick Currier, Counsel, Energy and Power; Tom 
Hassenboehler, Chief Counsel, Energy and Power; Ben Lieberman, 
Counsel, Energy and Power; Brandon Mooney, Professional Staff 
Member, Energy and Power; Chris Sarley, Policy Coordinator, 
Environment and Economy; Christine Brennan, Democratic Press 
Secretary; Jeff Carroll, Democratic Staff Director; Caitlin 
Haberman, Democratic Professional Staff Member; Rick Kessler, 
Democratic Senior Advisor and Staff Director, Energy and 
Environment; and John Marshall, Democratic Policy Coordinator.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning.
    Today we are going to have another discussion on a 
discussion draft addressing hydropower regulatory 
modernization, and the FERC process coordination under the 
Natural Gas Act. As you know, we have had a series of meetings 
and hearings on drafts that we want to incorporate in an 
overall energy bill, and today, as I said, we are going to be 
focusing on hydroelectric power and natural gas. And our goal 
is to help unleash the potential of these affordable domestic 
energy sources by modernizing the applicable regulatory process 
at FERC.
    If ever there were such a thing as a bipartisan energy 
source, it is certainly hydroelectric, and natural gas would be 
at the top of the list. So I look forward to working with all 
of my colleagues to minimize the red tape and maximize the 
benefits of these two sources for the sake of affordable 
energy, the environment, national security, job creation, and 
certainly economic growth.
    Hydroelectric is a source of clean, reliable, and 
affordable power, yet the federal process for licensing new 
capacity or relicensing existing capacity is considerably more 
cumbersome than for other renewable sources. For example, I 
have been told that it is not unusual that these hydropower 
projects to obtain the permits sometimes takes on average maybe 
up to 5 years, and I know we are going to hear today about a 
process that has taken 15, 16 years. But on the other side of 
the coin, for wind and solar projects, the Administration is so 
focused on moving those that you can get permits in 18 months, 
and then also you get exemptions from the Migratory Bird Act 
and also the Eagle Protection Act. So there is a lot of 
favoritism in those areas.
    So this discussion draft will establish FERC as the 
exclusive authority on hydroelectric licensing, and includes 
several provisions to eliminate redundant and unnecessary 
requirements, and put the review process on a reasonable 
schedule. It also encourages the creation of new hydroelectric 
power from existing non-powered dams by providing a licensing 
exemption for qualifying facilities. In all cases, all cases, 
the environmental and safety requirements for these facilities 
will be maintained. So we are not taking away any power from 
the agencies that have that responsibility.
    A few weeks ago, we had a hearing and I talked about Dire 
Straits, they had a song, Money for Nothing, Chicks are Free. 
Today, we have the words of Woody Guthrie in his song, Roll on 
Columbia, and it goes like this, and up on the river is the 
Grand Coulee Dam, the mightiest thing ever built by man, to run 
these great factories and water the land, it is roll on, 
Columbia, roll on. So we want to help Woody Guthrie keep this 
water rolling, produce this hydropower. Now, he didn't talk 
about natural gas, but FERC is also involved in the approval 
process for interstate natural gas pipelines, and the problems 
are much the same as with hydroelectric power: a slow and 
unpredictable approval process that is out of touch with 
America's energy needs today. This is particularly true of 
natural gas, given the tremendous increases in domestic output 
over the last decade. So getting that gas to the power plants 
and factories and consumers that need it will require new 
pipelines as well as upgrades of existing pipelines. In fact, 
this was a major point in the Department of Energy's 
Quadrennial Energy Review. It was clear that a more streamlined 
permitting process will help to build these pipelines.
    So that is out goal. We want an efficient, quick process, 
but we want to protect the environment and make sure that we 
provide adequate protections for safety and everything else. So 
that is what our hearing is about this morning.
    I am really delighted, we have two panels of witnesses, and 
I will be introducing our first panel in just a minute. At this 
time, I would like to recognize Mr. Rush for his opening 
statement.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning we will discuss two additional components of 
our bipartisan energy package that deal with hydroelectric 
power and natural gas. Our goal is to help unleash the 
potential of these affordable domestic energy sources by 
modernizing the applicable regulatory process at the Federal 
Energy Regulatory Commission (FERC). If ever there were such a 
thing as bipartisan energy sources, hydroelectric and natural 
gas would be at the top of the list, so I look forward to 
working with all of my colleagues to minimize the red tape and 
maximize the benefits of these two sources for the sake of 
affordable energy, the environment, national security, job 
creation, and economic growth.
    Hydroelectric is a source of clean, reliable, and 
affordable power, yet the federal process for licensing new 
capacity or relicensing existing capacity is considerably more 
cumbersome than for other renewable sources. Congress has long 
recognized the need to upgrade the process in order for 
hydroelectric power to meet its full potential. But as it is, 
even relatively small hydroelectric projects, including ones 
that would electrify existing dams with negligible 
environmental change, are often subjected to years of delays 
that can prevent these projects from getting off the ground. 
And relicensing of existing hydroelectric facilities can be 
more of a hurdle than it needs to be.
    The discussion draft establishes FERC as the exclusive 
authority on hydroelectric licensing and includes several 
provisions to eliminate redundant and unnecessary requirements 
and put the review process on a reasonable schedule. It also 
encourages the creation of new hydroelectric power from 
existing nonpowered dams by providing a licensing exemption for 
qualifying facilities. In all cases, the environmental and 
safety requirements for these facilities will be maintained.
    In the words of Woody Guthrie in his song, ``Roll on 
Columbia'':
    And up on the river is the Grand Coulee Dam,
    The mightiest thing ever built by a man,
    To run these great factories and water the land,
    It's roll on, Columbia, roll on.
    This discussion draft helps carry on Woody Guthrie's work.
    Now Woody Guthrie never sang about natural gas, but FERC is 
also involved in the approval process for interstate natural 
gas pipelines, and the problems are much the same as with 
hydroelectric power--a slow and unpredictable approval process 
that is out of touch with America's energy needs today. This is 
particularly true of natural gas given the tremendous increases 
in domestic output over the last decade.
    Getting that gas to the power plants and factories and 
consumers that need it will require new pipelines as well as 
upgrades of existing pipelines. In fact, this was a major point 
in the Department of Energy's Quadrennial Energy Review (QER). 
The QER was clear that a more streamlined permitting process 
will help to build this new natural gas infrastructure. In 
particular, the current approval process is especially hampered 
by the involvement of multiple agencies and no clear deadlines. 
A December 2012 study conducted by the INGAA Foundation found 
that delays of more than 90 days have risen 28 percent after 
EPAct's permitting reforms, while delays of 180 days or more 
have risen 20 percent.
    The discussion draft puts FERC firmly in charge and gives 
it the authority to enforce firm deadlines. Additional 
provisions prevent other unnecessary delays. And, as with the 
hydroelectric provisions, this discussion draft aims to 
modernize the review process in a manner that maintains all 
existing environmental and safety standards.
    The hydroelectric and natural gas pipeline projects enabled 
by these discussion drafts will create a great many 
construction jobs. In addition to, the affordable energy 
produced by them will create still more jobs. It is time for 
the U.S. to make full use of our energy bounty, and these two 
discussion drafts are a strong step in that direction.

    [The discussion draft on the FERC Process Coordination is 
available at: http://docs.house.gov/meetings/IF/IF03/20150513/
103443/BILLS-114pih-DiscussionDraftonFERCProcess.pdf.]

    [The discussion draft on Hydropower Regulatory 
Modernization is available at: http://docs.house.gov/meetings/
IF/IF03/20150513/103443/BILLS-114pih-
DiscussionDraftonHydropowerRegulatoryModernization.pdf.]

    Mr. Rush. I want to thank you, Mr. Chairman. Mr. Chairman, 
before I begin, I want to ask for unanimous consent that we 
hear you sing the Woody Guthrie song, you know.
    Mr. Whitfield. Well, thank you. I will do that a little bit 
later.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you for holding the hearing. 
Unfortunately, Mr. Chairman, we are once again holding a 
hearing on two unrelated issues that each deserve their own 
separate consideration in their own right. The FERC process 
coordination under the Natural Gas Act is an updated version of 
H.R. 161 and H.R. 1900, which the subcommittee has previously 
examined, and is an attempt to expedite the FERC process for 
permitting natural gas pipelines. The biggest concern I have, 
Mr. Chairman, is one that I brought up in each of my previous 
attempts to modify this process, which is that this bill is 
simply a solution in search of a problem.
    Mr. Chairman, FERC data shows that between 2009 and 2015, 
over 100 million natural gas pipeline projects were approved, 
spanning over 3,700 miles in 35 states, and with a total 
capacity of over 45 million cubic feet per day. Additionally, 
Mr. Chairman, while the average time from filing to approval 
was under 10 months, an overwhelming 91 percent of applications 
were decided within 12 months. Even the GAO has concluded that 
FERC's pipeline permitting process is both predictable and 
consistent, and pipelines are being built in a timely manner. 
In fact, Mr. Chairman, in testimony from stakeholders, ranging 
from the Interstate Natural Gas Association of America to 
Dominion Energy, this subcommittee has heard repeatedly that 
the current permitting process works well, and FERC has done a 
good job of deciding permits within a reasonable time period.
    So, Mr. Chairman, the question remains, is there really a 
problem?
    As far as the second and unrelated part of this hearing of 
dealing with the licenses of hydropower, I must say, Mr. 
Chairman, that this is the first time this subcommittee has 
even held an oversight hearing on this issue in at least the 
last 3 Congresses. Since I began as ranking member of this 
subcommittee in 2001, this is the first time we have even 
looked at this issue. And today's hearing does not have one 
single witness from any of the agencies who can testify on the 
impact that this draft legislation would have on any of our 
other natural resources that the citizens of this nation depend 
on in our waterways. Mr. Chairman, there is not one single 
representative from the Department of Interior, or commerce, or 
any of the state agencies who can testify on how this bill 
might impact our shorelines, our rivers, or our streams in 
regards to protecting the general public interest outside of 
the narrow consideration of providing hydropower. Mr. Chairman, 
there is not a single witness on either panel who can provide 
this subcommittee with expert testimony on how taking authority 
away from other agencies, and consolidating power and decision 
making authority solely within FERC might impact the public 
interest in matters regarding environmental protection, or 
families visiting a lake having a sufficient access to boat, 
fish, hike, or swim.
    Mr. Chairman, before we make it easier for private 
companies to take control of the use of the waters belonging to 
the people in this great nation, we should at least hear from 
the experts within those agencies that are responsible for 
protecting those interests.
    Thank you, Mr. Chairman. I will yield back my time.
    Mr. Whitfield. Gentleman yields back.
    Mr. Upton is not here this morning. Is there anyone on our 
side of the aisle would like to make a statement? If not, then 
at this time I recognize the ranking member, Mr. Pallone, of 
New Jersey for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. As I have said 
before, the reality of the energy picture in the United States 
is changing rapidly. As the committee of jurisdiction over 
national energy policy, it is eminently reasonable and 
appropriate for the committee to look closely at our new energy 
reality. So much has changed since the House last considered an 
energy bill, and it is our responsibility to carefully consider 
proposals to help us develop the energy policies of the future.
    Two weeks ago, I expressed concern cramming two completely 
unrelated subjects into a single, two-panel hearing, and again, 
we are here examining two subjects; natural gas pipeline 
permitting and hydroelectric licensing, that are important and 
warrant not only separate legislative hearings, but they also 
should be proceeded by a thorough oversight. It has been years, 
and in the case of hydroelectric licensing, an entire decade 
since this committee has conducted oversight of either of the 
programs that these drafts aim to reconfigure. From my 
perspective, this committee should not be writing legislative 
solutions before members have a chance to examine the state of 
play, or even confirm that a problem actually exists.
    While hydroelectric power can be an important source of no-
emission base load generation, it also potentially poses major 
harm to fish and wildlife populations, water quality, and other 
important resources. Hydroelectric power depends on rivers for 
fuel, and those rivers belong to all Americans, not just those 
who sell or buy the power generated from it.
    The Federal Power Act requires FERC to balance those 
competing interests in issuing a license because no one use of 
a river for power, drinking water, irrigation, recreation, or 
other use, should automatically take precedence. For instance, 
if a license might impact a protected resource such as a wild 
and scenic river, a national wildlife refuge, or a national 
park, then the appropriate federal agency responsible for that 
resource can put conditions on the license to ensure that the 
resource is protected.
    Unfortunately, the draft proposal before us completely 
throws out decades of policy and case law in one fell swoop. 
There is nothing subtle about the draft's changes. It 
undermines the key provisions of current law that exist to 
conserve our natural resources and protected areas, and ensure 
a balanced approach to the use of our nation's rivers. This 
legislation will only result in greater confusion, time-
consuming litigation, and exacerbated and unnecessary delays of 
hydropower licenses. So I sincerely hope the majority will 
consider holding proper oversight hearings to inform members, 
and help facilitate constructive discussions on hydropower 
reform.
    With regard to the other issue, the natural gas pipeline 
selling legislation, like the previous iterations of this bill. 
The draft is yet another solution in search of a problem. 
According to FERC, more than 91 percent of pipeline 
applications are reviewed within 1 year. I think that is pretty 
remarkable. And GAO concluded that the current FERC pipeline 
permitting process is predictable, consistent, and actually 
gets pipelines built. We have even heard pipeline companies 
testify that the process is generally very good.
    So this legislation, in my opinion, is unnecessary and 
would disrupt the perfectly functioning permitting process. 
Instead, it imposes a laundry list of prescriptive, 
duplicative, and potentially harmful requirements on FERC and 
every agency involved in the permitting process. This would 
only slow down, rather than speed up the approval of interstate 
natural gas pipelines. The draft positions FERC as a policing 
agency charged with micromanaging other agencies in 
consideration of application, even determining the scope of 
their environmental review, and FERC doesn't have the expertise 
or resources to make those types of decisions. More 
problematic, the draft purports to address this resource issue 
by allowing applicants to provide extra funding for FERC staff 
or contractors to aid in the speedy review of pipeline 
applications. And this provision is troublesome and could lead 
to inappropriate relationships between applicants and FERC 
staff.
    So, Mr. Chairman, I can't support either of the drafts 
before us today, and I urge the majority to rethink their 
proposals. Instead, I would like to work with you on energy 
legislation that benefits consumers as well as producers, 
promotes American jobs, protects our environment, and builds 
upon past successes to propel us into a better future.
    I yield the balance of my time. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back, and thank you 
very much for those statements. And that concludes the 
statements.
    So as I said, we have two panel of witnesses, and on the 
first panel, we have the Honorable Paul R. LePage, who is the 
Governor of Maine. Governor, we appreciate your taking time to 
be with us today, and thank you for being willing to 
participate. In addition, we have Ann Miles, who is the 
Director of the Office of Energy Projects at FERC. Ms. Miles, 
thank you very much for joining us. And each one of you will be 
recognized for 5 minutes for your statement, and then we will 
open it up for questions.
    So, Governor, I will begin with you, and you are recognized 
for 5 minutes. And the little box on the table has the lights 
which--red would mean stop, but if you are in mid-sentence, you 
can go on and complete it. Thank you. And turn your microphone 
on also, thank you.

 STATEMENTS OF HON. PAUL R. LEPAGE, GOVERNOR OF MAINE; AND ANN 
 F. MILES, DIRECTOR, OFFICE OF ENERGY PROJECTS, FEDERAL ENERGY 
                     REGULATORY COMMISSION

                  STATEMENT OF PAUL R. LEPAGE

    Governor LePage. Good morning, Chairman Whitfield, Ranking 
Member Rush, and members of the subcommittee. Thank you for the 
opportunity to testify today, and the efforts that this 
committee will take to modernize our federal permitting process 
for energy infrastructure.
    Natural gas and hydropower can provide competitive and 
clean energy for our economy. We need infrastructure, we plead 
with you, from pipelines to transmission lines, to take 
advantage of these plentiful resources. The people of New 
England want these projects done, but bureaucracy is preventing 
timely action. Bureaucracy has hijacked democracy.
    Natural gas. New England has transitioned to natural gas to 
generate electricity. We have gone from 15 percent to almost 50 
percent in the last 15 years. Our infrastructure has simply not 
kept up. Our pipeline cannot transport enough gas from 
Pennsylvania. This has caused prices to spike from $3 per 
million BTUs to $20 per million BTUs; some of the highest 
prices in the world. This has dramatic consequences for New 
England. In Maine, we lost two major employers. Electric bills 
for residential customers have skyrocketed. The average 
electric price in our region is now 17.3 cents per kilowatt 
hour. In some areas, bills have increased by as much as 100 
percent. We need a sense of urgency at the federal level to 
permit natural gas infrastructure. States must step up to 
prioritize these projects. Together, it can get done.
    It makes no sense to me why it should take 3 to 5 years to 
build a pipeline. We built several hundred miles within our 
state in 18 months. The legislation before you today would help 
empowering FERC to make deadlines for other federal agencies. 
As far as I am concerned, Washington could use a lot more 
deadlines.
    Hydropower. The committee's proposal regarding hydropower 
is encouraging. This country has ignored the benefits of 
hydropower. New England knows that hydropower is necessary to 
provide clean, predictable power. New England governors met 
last month to discuss infrastructure and transmission line to 
Canada. The committee must work to overhaul our cross-border 
permitting laws. Maine shares a huge border with Canada. I am 
concerned when cross-border permitting becomes politicized, 
like it has with the Keystone Pipeline. This is not how we 
should be doing business with our neighbors to the north; 
Canada.
    The committee draft legislation would exempt existing non-
powered dams from the Federal Power Act if it does not 
significantly alter the dam. This is very sensible. We should 
remove roadblocks for getting power out of existing dams. Maine 
has a potential of 70 megawatts of additional hydropower 
available for non-powered dams.
    Gentlemen, overzealous activists are taking advantage of 
federal bureaucracy. I can give you a number of examples. They 
are blocking affordable energy for our citizens and our 
businesses. Congress must back our country. We must take it 
back from the bureaucracy of Federal Government. I often say, 
you have heard the saying, too big to fail, well, I say 
Washington is getting too big to work. Congress must act.
    And I thank you for your time.
    [The prepared statement of Governor LePage follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. And, Governor, thank you very much for that 
statement.
    And at this time, Ms. Miles, you are recognized for 5 
minutes for your opening statement.

                   STATEMENT OF ANN F. MILES

    Ms. Miles. Thank you. Chairman Whitfield, Ranking Member 
Rush, and members of the subcommittee, my name is Ann Miles and 
I am the Director of the Office of Energy Projects at the 
Federal Energy Regulatory Commission.
    The commission is responsible for siting infrastructure for 
nonfederal hydropower projects, interstate natural gas 
pipelines and storage facilities, and liquefied natural gas 
terminals. I appreciate the opportunity to appear before you to 
comment on the discussion drafts.
    As a member of the commission's staff, the views I express 
in this testimony are my own, and not those of the commission 
or any individual commissioner.
    I will first comment on the discussion draft addressing 
hydropower. It has the important goals of improving 
transparency, accountability, and timely decision-making. 
Because the hydro draft is extensive, I will only highlight a 
few sections in my oral testimony. In Section 1302 of the 
draft, which adds a new Section 34 to the Federal Power Act, or 
FPA, I support the development of procedures to lower the time, 
effort, and expense needed to develop hydropower projects at 
existing non-powered dams. However, it is not always the case 
that a small capacity project has only minor environmental 
impacts. Therefore, removing federal jurisdiction for 
qualifying facilities that are 5 megawatts or less could result 
in unintended consequences for environmental resources. I am 
also concerned about some of the specifics of the proposed new 
FPA Section 34, including, for example, the extent to which it 
could be read as elevating economic and operational concerns 
over other public interest considerations. In Section 1303, I 
do not support the amendment to Section 33 of the FPA to 
require the commission, rather than the secretaries, to 
determine whether a licensed applicant's alternative condition 
under Section 4(e) or Section 18 of the FPA would protect the 
federal agency's reservation. Further, shifting oversight of 
the trial-type hearings required in the new Section 35 to the 
commission would not eliminate the substantial expense and time 
associated with such hearings, as I understand is the current 
situation. Instead, Congress may wish to consider eliminating 
them entirely, and allowing the commission to address disputes 
on the material facts of the proceeding earlier in the 
commission's licensing process. Finally, in Section 1304, I am 
supportive of the intent of the amendments to Section 308 and 
the new Section 313 to bring certainty and timeliness to the 
hydro-licensing process. However, without a method to enforce 
any established schedule, the goals may not be achieved.
    I will now turn to comments on FERC process coordination 
under the Natural Gas Act, or NGA, which has the commendable 
goal of improving transparency and predictability for federal 
and state permitting agency actions by adding more 
coordination, reporting, issue resolution, and accountability. 
The Energy Policy Act of 2005 provided additional authorities 
and responsibilities to the commission in Section 15. The 
proposed legislation includes existing practices the commission 
added to its regulations in response to EPAct 2005. However, 
the proposed changes would move some of the activities to later 
in the process than is the case under current commission 
practice; thus, lessening efficiency.
    There are two aspects of the draft that bear particular 
attention. First, in Section 15(c)(6), if an agency does not 
meet the 90 day or otherwise approved schedule, the federal 
agency head must notify Congress, which would provide some 
accountability. Second, in Section 15(e), I see value in 
requiring the commission to make available on its Web site the 
schedule established with other federal agencies, and the 
status of federal authorizations, because that information is 
now scattered in various filings. Overall, the current process 
for siting natural gas facilities is timely and efficient, and 
results in fair, thorough, and legally defensible documents. I 
am concerned that codifying the commission's practices too 
rigidly might have the unintended consequence of limiting the 
commission's ability to respond to the circumstances of 
specific cases, to changes in the natural gas industry, and to 
the nation's energy needs.
    Finally, commission staff would be happy to provide 
technical assistance, and to work with other stakeholders to 
help refine both the hydropower and gas discussion drafts.
    This concludes my remarks. I would be pleased to answer any 
questions you may have.
    [The prepared statement of Ms. Miles follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you, Ms. Miles. And thank both 
of you once again for coming and giving us your perspective on 
this discussion draft.
    Governor, we have had a lot of hearings, obviously, on 
energy issues, and one of the recurrent themes that we hear 
about is that in the Northeast particularly, there are a lot of 
problems with electricity--adequate electricity supplies. I 
mean some of the nuclear plants are being closed. And one of 
the problems is, as you--this Administration particularly, is 
trying to transform the way energy is being produced in 
America, going more to renewables, less coal, and so forth, and 
when you push the country so quickly in one direction, it does 
create some capacity problems, and I think that is what you 
were referring to. And is this argument that we hear about the 
Northeast, that they really do have capacity problems, and the 
polar vortex, the impact of that, do you think it is a 
realistic problem or is it just something that is hyped too 
much?
    Governor LePage. Well, let me put it this way. If you own a 
home in Montreal, a home in a major city, and you don't heat 
with electricity, an average home will cost you about $34 a 
month in your electricity bill. If you do that in Maine, it is 
about $90. If you heat in December, January, and February in 
Montreal, it will cost you about $100 a month if you are using 
electricity. In Maine, you have to get a bank loan.
    So, sir, it is a capacity issue, and it can be resolved 
with about a 40-mile transmission line to connect into Quebec 
Hydro and bring it right into Maine. Quebec Hydro right now has 
48,000 megawatts. 48,000 megawatts. Muskrat Falls in Lower 
Labrador is going to be coming online in a couple of years with 
another 3,800 megawatts of hydro power. We don't need to build 
dams up in Maine, although I think the the few dams that are 
already in place, if you put a generator on, you could generate 
70 megawatts. But my point is very simply this, there is plenty 
of electricity, affordable energy, but we can't get to it.
    Mr. Whitfield. And so what needs to be done to get to it?
    Governor LePage. We need a transmission line in the western 
part of Maine, about 40 miles to go to the border, and the 
Canadians are waiting to hook on.
    Mr. Whitfield. And is that a project that you have been 
very much involved in, and----
    Governor LePage. It is a project that we have been 
developing. There are three states that are willing--well, two 
out of three New England states are willing to do transmission 
at this point is Vermont is willing to transmit power from 
Canada into New England, and Maine is willing to transport 
power from Quebec into New England. The problem is getting 
through the bureaucracy.
    Mr. Whitfield. And how long have you all been working on 
this project?
    Governor LePage. I am in my fifth year of being governor.
    Mr. Whitfield. And was it started before you became 
governor?
    Governor LePage. Yes. New Hampshire had started it before I 
even came in, and that has been at a standstill ever since.
    Mr. Whitfield. Well, could you be even more specific on 
precisely what the impediment has been?
    Governor LePage. It has been state and federal.
    Mr. Whitfield. State and federal.
    Governor LePage. Yes, state and federal, meaning the State 
of New Hampshire, they have been working with Hydro Quebec for 
years and years and years, and frankly, we don't know where it 
is going.
    Mr. Whitfield. But----
    Governor LePage. I believe that by July or August, the 
Canadians are going to be looking elsewhere, looking to the 
other two states, and that is why it is very timely that I be 
here and say we need your help.
    Mr. Whitfield. But you and your legal authorities have 
looked at this draft, and you do support this particular 
draft----
    Governor LePage. Yes.
    Mr. Whitfield [continuing]. That we have before you?
    Governor LePage. Absolutely. We believe that it is very, 
very important. For instance, there are several projects being 
proposed to bring natural gas from, let's say, Pennsylvania to 
Dracut, Massachusetts. We have the infrastructure in the ground 
in Maine. We have put in several hundred million dollars' worth 
of pipeline in the roads of Maine, but we have empty pipes 
because we can't connect to the source. And so we need the 
resource to come to at least Massachusetts, and four of the New 
England states are working together to try to make that happen.
    Mr. Whitfield. Yes. Yes. Well, we are not trying to upset 
the applecart with this discussion. We have heard from so many 
different interests that there are some significant problems. 
And, Ms. Miles, I appreciate your testimony. There are certain 
parts of this bill that you think are reasonable, and other 
parts that you are willing to work with us on. But, you know, 
it is not only FERC but we are talking about the Corps of 
Engineers, the Department of the Interior, Bureau of Land 
Management Fish and Wildlife Service, we have all these federal 
agencies that have a part in this, and if they drag their feet, 
there is really not a lot that can be done about it. So we look 
forward to working with you both and others in trying to simply 
have a more balanced approach to help solve some of these 
capacity problems that we face.
    At this time, recognize the gentleman from Illinois, Mr. 
Rush, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Director Miles, are there any instances of a natural gas 
permitting application being delayed because an applicant has 
not submitted all of the necessary information, and if so, how 
would this legislation expedite the process in those cases 
where agencies are not provided with timely and complete 
information necessary to perform congressionally mandated 
project reviews, and what recommendations would you make to 
help address this particular issue?
    Ms. Miles. Congressman Rush, I believe FERC has a very 
structured, efficient process for addressing natural gas 
pipeline projects. It consists of the first stage where the 
applicant will actually investigate whether there is a need in 
the area to transport gas, and then we encourage all of our 
applicants with major pipelines to enter into what we call pre-
filing. That was established quite a while ago, and we have 
found some more significant rules around that came in in 2005. 
Anyway, during that period of time, we work with all 
stakeholders who have an interest in the pipeline, we work with 
all agencies who have responsibilities for issuing permits, and 
the goal of that pre-filing is to figure out what the issues 
are and what information is needed for not only FERC staff, but 
the other agencies to do their environmental reviews of siting 
such a pipeline. Most applicants are very accommodating and 
they are interested in providing us with the information that 
is required in all of our resource reports. If, per chance, we 
don't have it at the time the application is filed, then we 
will ask further for it.
    Mr. Rush. How would this legislation impact and expedite 
the process in those cases where agencies are not provided with 
timely and complete information which is necessary for you to 
perform your congressionally directed processes?
    Ms. Miles. We are able to move forward with our 
environmental document. As long as we have the information we 
need. Should some agencies need something after us, they then 
will have an opportunity to get that before they issue their 
permits. As far as the legislation goes, the one thing that 
seems to be in the gas legislation is that the head of the 
agency would report to Congress if there is any delay.
    Mr. Rush. Have you had any extraordinary complaints from 
applicants about the time that it takes you to approve an 
application?
    Ms. Miles. As I said in my testimony, we are issuing the 
majority of our findings in the natural gas facilities with--
about 92 percent within 1 year. There are a few more complex 
projects that are more contentious, where it may take slightly 
longer, and we do hear sometimes if it takes a bit longer than 
that.
    Mr. Rush. Would you characterize the purpose of this 
hearing is to deal with the 8 percent that is not granted 
approval? It seems to me that if you granted 92 percent, then 
maybe we have--in this subcommittee maybe we have finally come 
up with the problem, and the purpose of this subcommittee is to 
find out what is happening with the 8 percent that are not 
approved and--because 92 percent of all the applicants are 
approved within a timely manner, so maybe we are concerned 
about the 8 percent, Mr. Chairman.
    But, Mr. Chairman, I yield back the balance of my time.
    Mr. Whitfield. Gentleman yields back.
    At this time, recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you very much.
    Governor, welcome. I have been fortunate to be a member of 
the committee for a long time. And does New England still rely 
heavily on heating oil--and I think that is part of this 
debate, isn't it?
    Governor LePage. Yes, it is for us. In 2010, when I took 
office, roughly 80 percent of the homes in Maine were heated 
with heating oil. We have managed to get it down to about 62 
percent this past winter. Most of it has been with heating 
pumps and pellets. In the rural areas, we can do pellets, heat 
pumps, that technology works pretty well, but in order to 
really make a difference, we really need natural gas to get 
into the infrastructure that we have in our state in order to 
be able to take the--while we call metropolitan areas or urban 
areas of Maine, you would call them----
    Mr. Shimkus. My district.
    Governor LePage [continuing]. Very rural.
    Mr. Shimkus. You would call them my district, so----
    Governor LePage. Yes, right.
    Mr. Shimkus. I represent 33 counties in southern Illinois, 
the largest community being 33,000 people, but we are 
connected. Natural gas is our predominant heating ability in 
fuel. In New England, it is not, and in fact, from my 
colleagues here, we set up what is it called, a heating oil 
reserve, because of a crisis years ago, to make sure that there 
would be heating oil for New England----
    Governor LePage. Right.
    Mr. Shimkus [continuing]. Which now we kind of manage. So I 
would hope just as a national policy that we would help move 
natural gas to New England.
    Governor LePage. I would certainly encourage Congress to 
look at this. In 2014, the State of Maine paid a premium of $2 
billion--1.3 million people paid a premium of $2 billion 
because of spikes and the high cost of energy in the winter 
months. This past winter, while it was a severe winter, we got 
a break, we only paid a little over $1 billion premium. And 
Maine is not a wealthy state. The per capita income just broke 
$41,000. So we are putting an inordinate amount of pressure on 
Maine families, and we could do so much better.
    Mr. Shimkus. And I think in New England, there are some 
small hydro--I am talking about New England as a whole, as a 
region, and there--I am told there is some concern of the 
possible inability to relicense some small hydro in New England 
as a whole, which would increase the challenges, would it not?
    Governor LePage. Absolutely. Like I said earlier, we have 
small dams that if we could put power on them, we could 
generate 70 megawatts, which doesn't sound like a lot in 
Washington, but in Maine, that is a lot of power.
    Mr. Shimkus. Right. Ms. Miles, thank you for your 
testimony. I was talking to the staff, and we actually employ 
government employees here many, many times. I don't think I 
have sat through one that has been so specific and so precise 
on what you like and what you dislike. So I find that very 
refreshing, and I appreciate that.
    So I want to address one of the ones that you addressed. 
Your opposition to amending Section 33, I think that is on page 
16 of the testimony. And the concern is, we have had 
Commissioner Moeller here a couple of times, where he 
specifically stated that what we are trying to address would be 
very, very helpful, which would seem to be contradictory to 
what you have stated. He has quoted if Congress chooses to 
address the situation, changes in various statutes could 
require that resource agencies meet certain deadlines in their 
statutory role in reviewing such products. Another approach 
would be to provide the commission with the authority to rule 
on whether the conditions that resource agencies submit 
appropriately balance the benefits and costs that these 
projects provide. Again, this would require significant change 
in the various environmental laws for the relevant resources 
agencies. Can you comment on that?
    Ms. Miles. Yes. I think there is a little bit of an 
innuendo. Shared decision-making is absolutely one of the 
biggest challenges for licensing hydropower projects. That is 
the way Congress established the statutes, and we have worked 
many years to try to, through regulation and through some 
statute, get us all working in the same direction and in a 
timely--obviously, we all would like a very efficient, timely, 
low-cost process for hydropower.
    As I understood the Section 33 change, it was a very 
specific part that was put into the statute that allowed 
applicants to come up with an alternative, and then the 
agencies to address that through trial-type hearings and 
through alternative conditions. What I am trying to say is, I 
believe the agencies need to give us what their bottom line 
condition is that they believe is needed to protect their 
reservation. That is what their mandate is under their statute. 
If Congress were to choose to then, once the commission had all 
those, to say that it is the commission's responsibility to do 
a more balanced look across those, then I can't speak for 
Commissioner Moeller, but I think that is a bit of a 
distinction.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, recognize the gentleman from California, Mr. McNerney, 
for 5 minutes.
    Mr. McNerney. Well, thank you, Mr. Chairman. Thank you, 
Governor and Ms. Miles, for coming and testifying this morning.
    You know, I think the intent of the bill sounds good; 
streamlining permitting so that we have things operating in 
parallel instead of in series. We want an efficient process, 
but I am not sure that we are heading down the right path in 
order to achieve that goal.
    Regarding the pipeline question, my estimate is it might 
actually make things worse. For example, FERC data shows that 
the average time for filing to approval is under 10 months, and 
FERC decides 91 percent of certificate applicants within 12 
months. So are we actually going to make things better by 
enacting this kind of rule?
    So, Ms. Miles, what, if any, are the potential benefits of 
simply mandating pre-filing, trying to bring federal agencies 
to the table sooner on every permit?
    Ms. Miles. I believe in most cases, federal agencies are 
coming to the table early during pre-filing.
    Mr. McNerney. Two thirds, approximately.
    Ms. Miles. Pardon me?
    Mr. McNerney. Two thirds.
    Ms. Miles. I don't have a specific number on that. I could 
look into it. For liquefied natural gas facilities, pre-filing 
is mandated under the statute. It is not mandatory for pipeline 
and storage projects, however, we do meet with applicants 
before the pre-filing were to begin, and we recommend and many 
choose to use it because they find it a very valuable time to 
get everyone to the table early. We also work with those 
federal agencies to have them be cooperating agencies in our 
environmental document. So----
    Mr. McNerney. So how long does the pre-filing stage last? 
How long does it typically----
    Ms. Miles. It is mandated for 6 months for liquefied 
natural gas facilities. Some applicants choose longer. The real 
goal of pre-filing is that the time the application is filed--
--
    Mr. McNerney. Right.
    Ms. Miles [continuing]. All the information is available 
for FERC and other agencies who have permits to issue to be 
able to do their environmental documents and move toward 
issuing their permits. So some companies will choose to stay in 
pre-filing a little longer to make sure that the information is 
going to be available.
    Mr. McNerney. So pre-filing takes as long as the applicant 
wants it to take.
    Ms. Miles. Yes.
    Mr. McNerney. In your experience, what are some of the 
reasons other permitting agencies don't always respond in a 
timely manner?
    Ms. Miles. Are you speaking particularly about natural gas?
    Mr. McNerney. Correct.
    Ms. Miles. As I said, you know, the majority are responding 
in a timely manner----
    Mr. McNerney. Yes.
    Ms. Miles [continuing]. For gas.
    Mr. McNerney. Well, it seems to me that a 90-day 
requirement is arbitrary because some projects are very 
complicated and some projects are very simple. Simply saying 
that we have to have all the agencies meet a 90-day requirement 
may actually tie their hands and force them to say no on 
applicants where, if they actually would have had more time, 
they could have approved it. Is that a correct assessment?
    Ms. Miles. That could be. My understanding is that also it 
could be 90 days or a schedule that is negotiated with the 
other agency.
    Mr. McNerney. So it might be more reasonable to have a 
negotiated timeline for every application, rather than just 
saying 90 days for every application.
    Ms. Miles. It could be. The other thing that was a bit of 
concern is, we feel like using the pre-filing is very--that is 
the place where it is important that a lot of steps and 
cooperation and agency identifications begin, and I would not 
want anything to move later in the process that could be a 
complication for us, and I have mentioned that in the 
testimony.
    Mr. McNerney. So then to reiterate, I am going to just sum 
up by saying it might be beneficial to encourage more 
applicants to go through the pre-filing process, and then have 
a negotiated period instead of a 90-day strict requirement for 
federal agencies to respond.
    Ms. Miles. Certainly go through the pre-filing process. 
Ninety days seems a reasonable time to me.
    Mr. McNerney. OK.
    Ms. Miles. It could be negotiated in some particular 
instances.
    Mr. McNerney. All right, thank you, Mr. Chairman. I yield 
back.
    Mr. Olson [presiding]. The gentleman yields back.
    As fate would have it, the chairman has to run off for a 
little opportunity, so 5 minutes for some questions.
    And first of all, welcome. Good morning. Thanks for coming. 
Governor LePage, just when we talked earlier about Maine, and 
what I know about Maine is you have a lot of water, lots over 
very powerful water, because my brother surfs in York, Maine, 
every winter. Really cold, and apparently gets some tubing, 
some really big waves, much bigger than Galveston, Texas. So I 
want to learn more about your issue of hydropower. I understand 
you have done a study on hydropower recently. Can you talk 
about those findings and what are some of the benefits of 
hydropower challenges that this bill may fix?
    Governor LePage. Well, right now in Maine we have a number 
of small dams throughout the state. So that you get the picture 
of Maine, Maine is 35,000 square miles, 90 percent is water and 
forest. So it gives you a sense that we have an awful lot of 
natural resources. And we are very proud of it and we take care 
of it, and one of the things that we do is we are very strong 
in tourism. We believe that we have the resources to be self-
sufficient, and we could do it in a timely manner.
    Now, I have heard some talk about liquid natural gas. When 
I was elected in 2010, there was a project for liquid natural 
gas to be in Maine, and what happened now it has been canceled. 
So the point is--what I am saying is, if we were able to 
energize a lot of these little dams that we have, we could 
generate 70 megawatts of power for the Maine people, and lower 
the costs that we are currently paying.
    Mr. Olson. And how are we blocking that, sir? How is 
Washington, D.C., blocking your efforts to have those little 
smaller dams----
    Governor LePage. Because every application has to go 
through FERC.
    Mr. Olson. OK.
    Governor LePage. Whether it is 2 megawatts, or 500 kilowatt 
hours, it has to go through. And earlier on in my career, of 
course, it is a long time ago, it took years to be able to get 
little dams, and now I hear that we don't even bother because 
it is just too costly.
    Mr. Olson. And switching to pipelines, sir, some people 
think pipeline reform--we have the permitting process, is 
something just for big oil, those companies, and that is 
something they only have to worry about. My first question is 
simple on this issue. What do you worry about as the Governor 
of Maine with these pipeline issues not being approved as 
quickly as possible?
    Governor LePage. Well, like I said, we lost two major 
employers. We lost one this past winter. And folks, let me tell 
you some reality here, 500 jobs in a paper company, and the 
premium on oil, the premium going from gas to oil in the winter 
months between November and May was $20 million. They closed 
their doors. And now it is being dismantled. That is why I am 
pleading for you to do something because we need those jobs.
    Now, I spoke to the chairman of Airbus a couple of years 
ago and this is what he told me. Governor, what is the cost of 
your energy? I said, we are the cheapest in New England. He 
said, well, how do you compare with Alabama? He says, Alabama 
is 4 cents. Folks, at the time, we were 14 \1/2\. Now the 
region is up to 17. And he said, you may be a good governor but 
you are very naive on how much energy it takes to assemble a 
jet.
    Mr. Olson. And we can fix that here in D.C. My questions, 
Ms. Miles, to you are, your testimony described how FERC acts 
on gas pipelines, but next panel, Mr. Santa, his testimony 
mentions that the GMO has analyzed the major pipelines, the 
approval process, they have found that FERC takes up to 2.5 
years for a certificate. That averages 558 days. Of course, 
that does include all the delays from other agencies being 
involved in this process. Can you talk about some of these 
delays on this larger pipeline project, and how FERC is 
addressing these long, long, long delays?
    Ms. Miles. I haven't looked, actually, at the details of 
how the numbers were calculated for the GAO report. I do think 
that there are some projects that are very long and complex and 
more controversial, and they may take slightly longer to both 
gather the information that is necessary to do a solid 
evaluation of the potential effects of the project. I remain 
though very convinced that the majority of projects go through 
fairly quickly. It is a quite efficient process, and I think 
most have been extremely successful.
    Mr. Olson. Well, I encourage you to read the report, ma'am, 
because it says you average 558 days for approval process, 2.5 
years. That is unacceptable.
    I yield back, or yield to the gentleman who is up here.
    Voice. Mr. Green.
    Mr. Olson. Mr. Green from Texas is recognized for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. And, Governor, thank 
you for being here, and also, Director Miles.
    Director Miles, thank you for testifying, and I know FERC 
has a lot of on its plate and I think many of us believe the 
commission is doing as good a job as possible on natural gas 
space reviewing applications and issuing decisions. Today, I 
would like to talk about the FERC process of coordination for 
natural gas pipelines.
    In your testimony, you seemed to encourage more 
accountability in the pre-file review process. First, when you 
write natural gas project applications, what do you mean? Are 
you including every application, or are you including LNG 
operation and maintenance, or just new construction, or are you 
using all of them? Is that----
    Ms. Miles. All of them.
    Mr. Green [continuing]. All applications?
    Ms. Miles. Yes.
    Mr. Green. OK. In your testimony you said that FERC is able 
to act 92 percent on natural gas applications in a year. What 
percentage of new construction projects has FERC approved in 
less than a year? Do you know?
    Ms. Miles. I do not know, but I would be glad to get back 
to you on that.
    Mr. Green. OK. I know for an LNG, import facility now, we 
used to try and export, but now we are big on importing. I know 
FERC just approved one for Corpus Christie----
    Ms. Miles. Yes.
    Mr. Green [continuing]. Just in the last few days, and I 
appreciate that, but I know it takes typically about 18 months 
for an LNG import facility, and that is not even considering 
what the Department of Energy needs to do with the--although in 
the case of Corpus Christie, Department of Energy moved very 
quickly on it.
    Can you explain what type of projects that are included in 
the other 8 percent of that 92 percent, and what makes these 
projects different?
    Ms. Miles. I would think it is the larger projects that 
have more issues. It sometimes can be the need to gather 
further information----
    Mr. Green. OK.
    Ms. Miles [continuing]. From the company so that we are 
clear that we understand exactly what the potential effects are 
and we can analyze that.
    Mr. Green. And some of those issues, I know I have heard 
and it is--in earlier questions, are these issues with other 
federal agencies or issues with state-level agencies having to 
respond or not responding timely for FERC to FERC?
    Ms. Miles. I would think most of those are actually FERC 
trying to gather the information that it needs. We are 
typically cooperating with other federal agencies and state 
agencies who have federal authorizations. We will also work 
with them to review our documents. In our opinion, that is the 
best way to efficiently operate, is to have all federal 
agencies reviewing at the same time.
    Mr. Green. OK. Do you think that there ought to be some 
time limits on federal agencies, or if you have a problem 
sometimes in working with you, and I am talking about both the 
pre-review or the pre-filing review or during the process, do 
you think there needs to be some time limits on these other 
agencies responding to FERC's offer of--your offer to them? I 
know right now you can't tell an agency, Fish and Game or 
anyone else, what to do, but do you think there would be some 
good idea to have some time limits on them?
    Ms. Miles. Do you mean for being a cooperating agency----
    Mr. Green. Be cooperative.
    Ms. Miles [continuing]. Choosing to be a cooperating 
agency? I think it can't hurt.
    Mr. Green. OK. I know the staff invites these other 
agencies to participate in the NEPA process. What type of 
response time from the agencies after receiving this 
information, do you have that----
    Ms. Miles. I don't have that, but I would be glad to get 
back with you on that.
    Mr. Green. And what if they just don't respond?
    Ms. Miles. Well, at that point then they would not be a 
cooperating agency----
    Mr. Green. OK.
    Ms. Miles [continuing]. With us.
    Mr. Green. So could they hold up a permit from, say, for 
example, a transmission line from Canada, although I know that 
is a State Department issue, but they could hold up a pipeline 
coming across Massachusetts.
    Ms. Miles. We can proceed without the federal agency being 
a part, and then they would need to do their responsibilities 
under their own volition. And it could occur after the 
certificate is issued.
    Mr. Green. OK, but until they participate, we are not going 
to get the natural gas to Maine.
    Governor, I want to thank you for being here. I know the 
frustration, and believe me, I am from Texas and I would love 
to send you some natural gas, but we do have some pipelines 
that go to the Northeast, but they have a lot of customers 
already. And I think the closest natural gas you will get is 
from my friends in Pennsylvania. But we would sure like to get 
there because again, you shouldn't have to have a paper mill 
shut down. I will have to admit, I had two paper mills over the 
last 30 years shut down in my district, and it wasn't because 
of the high price of electricity.
    Governor LePage. I have had three since I have been 
Governor.
    Mr. Green. Yes. So, Mr. Chairman, I know I am out of time, 
but thank you.
    Mr. Whitfield. At this time, recognize the gentleman from 
Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Director Miles, I come from a position on this committee as 
a member who is currently dealing with the issue of permitting 
a 42-inch natural gas pipeline currently in the application 
review stage, and my district in Pennsylvania is home to some 
of the most pristine farmland, conservation space in the 
country, and my constituency has basically run the gamut of 
issues relating to the proposed pipeline from eminent domain to 
Indian burial grounds. One issue that keeps coming up is that 
of pipeline safety. As noted in your written testimony, FERC 
plays an inspection role during pipeline construction, but the 
Department of Transportation has jurisdiction to establish 
pipeline safety regs for operating reliance. So my question is 
can you tell us about the coordination you engage in with DOT 
to ensure that pipelines will meet their regulations, and 
ensure that nothing falls through the cracks as jurisdiction 
transitions from FERC to another agency?
    Ms. Miles. Yes, as you state, the Department of 
Transportation sets the standards, and when we review the 
applications we are checking to make sure that they meet those, 
and any analysis that needs to be done, we will do that, 
looking at volumes of flow and safety aspects of that.
    We do work with PHMSA, regularly coordinate with them on 
making sure we are clear on their standards, and that they are 
addressed through our evaluation.
    Mr. Pitts. One issue of concern to some of my constituents 
is the independence of FERC. Some perceive FERC as being 
captured by the industries it deals with, rubberstamp, if you 
will, and they point to statistics that reveal that virtually 
all of the applications that run the entirety of the FERC 
process are approved. Can you please speak to that concern?
    Ms. Miles. Well, I would say that many applications that 
come before us that we are looking at during the pre-filing 
period change dramatically through alternative routes, 
alternative systems, before we get to the point where the 
commission makes a decision on the appropriate project; whether 
to go forward with it, and if so, what conditions to include in 
it. So the commission takes into account and listens very 
carefully to comments from the public, from Indian tribes, from 
other state and federal agencies. Those are taken into account 
in trying to work through, what is the appropriate--looking at 
both engineering and environmental consequences of a project.
    Mr. Pitts. Now, in your written testimony, you stated that 
the discussion drafts addressing FERC process coordination has 
commendable goals, improving transparency, predictability of 
the agency actions, in particular. My question is, might these 
transparency efforts in the bill help alleviate concerns that 
FERC is a rubberstamp for the industry?
    Ms. Miles. I believe we are quite transparent already, but 
any time we could add something to improve on that, we are most 
willing to. I think one of the things that this bill does is to 
make available on a Web site at the commission the established 
schedules and expected completion dates, and that type of 
information that many may be aware of.
    Mr. Pitts. Now, some outside groups have urged my 
constituents to work outside the FERC process to oppose 
pipeline construction, given their perception of FERC's 
independence. And oftentimes, these groups advocate a turn to 
politics. My question is, can you please tell me how my 
constituents can best have their voices heard during permitting 
process?
    Ms. Miles. Yes, I certainly would hope that they would 
attend our scoping meetings. I would hope that they would file 
written comments also so that we clearly understand what their 
issues and concerns are. I would also ask them to subscribe 
through our electronic system to the project that they are 
concerned about, and they can keep up with what is going on 
with it every day. I would ensure them that commission staff is 
looking very carefully at everything as we go through the 
analysis, and that the commission in the end, when it makes its 
decision, will look at the entire record that has been 
developed for that project.
    Mr. Pitts. Thank you. My time has expired.
    Mr. Whitfield. Gentleman's time has expired.
    At this time, recognize the gentleman from New Jersey, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    My questions are of Ms. Miles. First, on the hydropower. 
Does FERC have a statutory mandate to protect water quality?
    Ms. Miles. Our mandate is to protect all developmental and 
non-developmental resources, and that would include the range 
of environmental resources of which water quality is certainly 
one.
    Mr. Pallone. And how about statutory mandate to protect 
access to public lands?
    Ms. Miles. We do have a responsibility to provide for 
recreation and access at projects, as it is appropriate for 
specific projects.
    Mr. Pallone. And what about a mandate to protect fish and 
wildlife?
    Ms. Miles. Yes, that is also a part of or comprehensive 
development and need to take into consideration all 
environmental and non-environmental resources.
    Mr. Pallone. My concern is that the discussion draft 
appears to grant FERC near-exclusive statutory authority to 
enforce state and federal mandates under the Clean Water Act, 
the Endangered Species Act, and agency Organic Acts, and even 
though you say you have some authority, my concern is that that 
is not your primary authority.
    Is FERC seeking this authority at the expense of states and 
the Departments of the Interior, Commerce, and Agriculture 
respectively? I mean, obviously, they have authority over these 
same things that I have asked about. Are you actually seeking 
this authority at their expense? I am only asking you the 
questions, not the Governor. I mean are you initiating that? 
Are you asking for it?
    Ms. Miles. No.
    Mr. Pallone. OK. Let me ask about--buried in the language 
of the draft there is a two-word change to Section 4(c) of the 
Federal Power Act, and the words of the existing statute, shall 
deem, are replaced by the single word, determines. The context 
of this change is the mandatory conditioning authority of the 
resource agency. You follow what I am asking you? Is this a 
significant change from current law?
    Ms. Miles. I don't think I can----
    Mr. Pallone. Answer?
    Ms. Miles [continuing]. I quite follow the details of that. 
Are you referring to the alternative conditions?
    Mr. Pallone. The mandatory conditions, sorry.
    Ms. Miles. The mandatory conditions?
    Mr. Pallone. Yes.
    Ms. Miles. I think I said earlier that my sense, and I am 
speaking for myself, is that the agencies should provide--they 
are the ones that were given by Congress the responsibility to 
provide their mandatory condition for their reservation, 
whether it is land under the federal land-managing agency, or 
Section 18 for fishway prescriptions.
    Mr. Pallone. But----
    Ms. Miles. I believe that is their responsibility.
    Mr. Pallone. But what would be the practical effect of this 
change on the ability of the resource agencies to protect and 
manage things under their jurisdiction? Can you answer that 
from a practical point of view?
    Ms. Miles. I believe that the draft discussion document is 
very complicated, and I am not sure that I have digested 
exactly what the goal is and the intent of each word. I am 
generally supportive of some aspects of it, and I am certainly 
supportive of any ability to move quicker and less costly in 
developing hydropower in this country, and an efficient system. 
The actual meaning of each word in the bill, I can't talk about 
today, but I would be happy to discuss that further.
    Mr. Pallone. OK. Let me just ask you a question about the 
natural gas pipeline regulation. My colleagues have said that 
we need the deadlines in this bill to hold federal agencies 
accountable, and ensure that they don't just sit on 
applications. You mentioned in your testimony that since 2005, 
the commission has authorized nearly 10,500 miles of interstate 
natural gas transmission pipelines, and GAO has concluded that 
FERC's pipeline permitting is predictable and consistent, and 
gets pipelines built. In your experience, are there significant 
delays in the review of natural gas pipeline applications at 
the commission?
    Ms. Miles. I think the majority of pipeline applications 
are moving at a reasonable pace.
    Mr. Pallone. All right, so just the last thing, Mr. 
Chairman. So of the small number of applications that take a 
little longer to review, are these delays due to slow walking 
on the part of FERC staff? I would assume that more complex 
applications would and should take longer to review. So what is 
the reason for those that are not----
    Ms. Miles. They tend to be more complex, more 
controversial, probably the larger projects that require more 
information-gathering.
    Mr. Pallone. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Whitfield. Gentleman's time has expired.
    I know the Governor wanted to interject at one point. Did 
you want to make a comment?
    Governor LePage. Yes, a couple of points I wanted to make. 
As I understand, the draft of the bill is for small, non-
producing hydro facilities. It is not the large project, it is 
the small, little dams that are not being produced, the less 
megawatt, maybe 3 to 4 megawatts, which is really not a real 
problem in our state. Believe me, there are so many that would 
just jump at doing that opportunity, and I don't believe it has 
any impact to the Federal Government. The only ones that are 
concerned about it are the people here in Washington, not the 
people in Maine. People in Maine see that as an extra few 
megawatts of power. So I don't see the impact. But I will say 
this, to go to your point about do other agencies have an 
impact, I will give you a real example. We have in Maine the 
Canadian lynx. The Canadian lynx is called Canadian lynx 
because it is primarily in the real northern reaches of Quebec. 
The very southern border might cross over into Maine because we 
have a few on top of the State of Maine. It took 7 years, 
because in the United States, it is an endangered species but 
it is not native to the United States, but it took 7 years to 
get an incidental taking permit, which we just got a year ago. 
My predecessor put it in several years ago. And U.S. Fish and 
Wildlife just sat on it for several years. And so my point is, 
the importance of what we are trying to accomplish here, at 
least from the State of Maine, is very simply this. You have 
rules. No problem. We have no problem with that. Tell us what 
they are, give us a timetable, we get it done or we don't get 
it done. But the danger is this. The reason the lyn permit took 
so long is they gave us a set of things to do. We did them. 
Then they gave us more things to do. We did them. They gave us 
more things to do. We did them. And it dragged on for 7 years. 
If that was tied to a hydro project, it is done, or if it is 
tied to natural gas, it is done, because no one, for these 
small projects that I am talking about, 500 kilowatt hours up 
to a megawatt or 2 megawatts or 3 megawatts, are going to spend 
their resources, the amount of money and time to permit such a 
small facility. So we are talking about small, little dams in 
our state that really are not--we are not talking the Boulder 
Dam here, we are talking about little, tiny projects along 
little streams, rivers that are already there, the dams are 
already there. It is just a matter of putting generation on it. 
So it is a totally different--we have gotten away from what I 
think the whole purpose is.
    Mr. Whitfield. Well, thank you, Governor, for that comment.
    At this time, recognize the gentleman from Mississippi, Mr. 
Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. And thanks to both of 
you for being here.
    And, Governor, thank you for your insight, and we 
certainly--it is not the first story we have heard about 
difficulties. And it almost appears that the delays are built 
in to keep others from trying to even go through the process, 
to make it so time-sensitive and so expensive that people just 
decide it is not worth the effort. Do you believe that?
    Governor LePage. That is exactly what I am talking about. 
For these smaller, little projects, it is all about you delay 
them until they get discouraged and they have spent enough 
money.
    Mr. Harper. Thank you very much.
    If I may ask you this, Ms. Miles. I am aware of four 
pending hydropower projects at my State of Mississippi. These 
proposed projects are below dams that already exist, there 
would be no new dam or impoundment, and the projects propose to 
make beneficial use of the water resources to generate clean 
electricity. Generally, how long does it take for that process? 
In general terms, how long should it take?
    Ms. Miles. The timeline for hydropower projects varies 
dramatically. For small projects like what the Governor may be 
talking about, where there aren't any environmental resources 
that there is much concern about, we have issued licenses in as 
short as 6 months from the time we have a complete application. 
For a complicated project----
    Mr. Harper. Define complicated.
    Ms. Miles. Well, where there are many issues. There may be 
endangered species, it could be any number of aspects of the 
environment----
    Mr. Harper. OK.
    Ms. Miles [continuing]. And it would be a larger project 
with more construction.
    Mr. Harper. The examples I am using in Mississippi, for 
instance, that there is no new dam or impoundment, you would 
consider that a less complicated situation, I am assuming?
    Ms. Miles. Yes, I would. And I don't know the situation 
with your individual projects, but one of the things that is 
going on is there is a DOE report that talks about a large 
amount of hydropower potential in the U.S., that there are 
80,000 dams, and there is only a very small percentage of them 
that have hydropower on them. And it also lists the top 
projects where you are going to get your best bang for your 
buck, where they have the potential to have maybe a 30 or 40 
megawatts of power added. Many of those are Corps of Engineers 
or Bureau of Reclamation Dams, and one thing that is in my 
testimony is perhaps a suggestion for trying not to have 
duplicative federal agencies, is that those agencies whose dams 
those are take on the responsibility for siting the nonfederal 
projects at their dams and remove FERC's----
    Mr. Harper. OK. Well, you raised----
    Ms. Miles [continuing]. Jurisdiction.
    Mr. Harper. You raised an interesting point there. I know 
that certainly FERC employs a large number of fish biologists 
and other scientists. Would it not be possible for FERC to just 
adopt other agencies' environmental analysis into the 
appropriate documents?
    Ms. Miles. With the hydropower projects, we are the lead 
agency, so those other agencies would cooperate with us or 
adopt our analysis.
    Mr. Harper. Certainly, but other cases, you would defer to 
others, I would assume.
    Ms. Miles. We could.
    Mr. Harper. OK. The Natural Gas Act grants FERC authority 
to set deadlines for the various permits required to construct 
the natural gas pipeline. When is a final decision on a federal 
authorization due after the commission issues its final 
environmental document?
    Ms. Miles. Currently it is 90 days.
    Mr. Harper. OK. How did FERC arrive at a 90-day deadline?
    Ms. Miles. Gosh, was that in the statute? I can't remember.
    Mr. Harper. If you know.
    Ms. Miles. I don't know for certain. I----
    Mr. Harper. Well, we would assume if you don't know, 
probably no one----
    Ms. Miles. Well, others will know.
    Mr. Harper. OK.
    Ms. Miles. I believe it was in--I don't know if it was in 
the statute or it was established through our regulations.
    Mr. Harper. That is fine. Have there been specific 
instances that you are aware of where other agencies were aware 
of the deadline set by FERC and simply failed to comply?
    Ms. Miles. There are times I am sure where they have not.
    Mr. Harper. Do you know how long that some agencies have 
failed to meet deadlines set by FERC?
    Ms. Miles. I do not.
    Mr. Harper. Could you obtain that information to us if----
    Ms. Miles. I am not----
    Mr. Harper [continuing]. It is available?
    Ms. Miles. I am not certain. I will look into it.
    Mr. Harper. OK, thank you very much. And my time has 
expired. Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you.
    At this time, recognize the gentleman from New York, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Miles, this bill provides that all other agencies that 
participate in the pipeline review process must give deference 
to the scope of environmental review that FERC determines to be 
appropriate. In other words, the bill before us would 
apparently have FERC tell other agencies what to consider when 
writing and issuing their permits, as required by federal law. 
That would require FERC to duplicate the expertise of the EPA, 
the BLM, the Fish and Wildlife Service, and the Army Corps of 
Engineers. That does not sound feasible to me. So I ask, does 
FERC have the necessary expertise to determine the appropriate 
scope of environmental review for these coordinating agencies?
    Ms. Miles. We have a very technically adept staff, however, 
for the other agencies with permitting responsibilities, we 
discuss with them what the scope of the analysis that they 
believe is necessary for them to issue their permits would be, 
and try to accommodate that as much as we can in our 
environmental documents.
    Mr. Tonko. So having those necessary bits of expertise may 
not necessarily be in place as we speak?
    Ms. Miles. FERC's has a wide range of expertise. We are 340 
people. We are made up of scientists who cover all the resource 
areas that come before us in analyzing projects, as well as 
engineers who can do that analysis. So I feel very comfortable 
with our technical expertise. I do believe the other agencies 
have responsibilities under their mandates, and what we do is 
to try to work with them, understanding what each other's goals 
are.
    Mr. Tonko. And further, does FERC have the resources to 
carry out the requirements of this provision?
    Ms. Miles. Currently, we have the resources we need to do 
our work. If we are given significant extra responsibilities, 
we would need to examine whether we do.
    Mr. Tonko. Thank you. And finally, as you mentioned in your 
testimony, and I quote, ``The comission staff gives deference 
to these agencies' opinion of the scope of environmental review 
needed to satisfy their NEPA obligations, as they are best 
equipped to determine what information satisfies their 
statutory mandates.'' So the language of this scoping provision 
would effectively reverse the current coordinating practice at 
FERC, would it not?
    Ms. Miles. Yes, we do have some concern that it has more of 
an oversight responsibility than we have right now with more of 
a cooperative relationship.
    Mr. Tonko. All right. And then would this provision improve 
or expedite, in your opinion, the current pipeline permitting 
process existing at FERC?
    Ms. Miles. My concern is, as I have said in my testimony, 
is that it moves some aspects of what we do now under our 
regulations, later in the process, and I don't believe that is 
valuable. I believe it needs to be done early in the process.
    Mr. Tonko. Yes.
    Ms. Miles. And there are a few other things.
    Mr. Tonko. OK. There are a number of gas pipeline projects 
underway in my home State of New York. Some of these are 
multistate pipelines, some are expansion projects. We consume a 
lot of gas in New York and in other states in the Northeast, so 
I believe we need additional infrastructure to ensure reliable 
service for gas customers. Of course, as with any large 
infrastructure project, there is opposition. Some absolute and 
firm, some can be satisfied with alterations to a given project 
to address specific concerns or problems. But that times time. 
The public is often less organized, and slower to the table 
than industry, perhaps with less resources, and states and 
local communities have concerns and want to participate. That, 
again, takes time. My understanding is that most of these 
applications, when they are complete, are approved within a 
year or two. Is that correct?
    Ms. Miles. Yes.
    Mr. Tonko. OK. So, frankly, that seems to be very 
reasonable. In fact, some of my constituents would probably 
want more time for deliberation in this process. I am concerned 
that shortening this process further could lead to compromises 
in safety, in fewer environmental benefits, and in more 
resistance to these projects by the public and local 
communities. Is this process indeed too long?
    Ms. Miles. The current process, as I have said, is--with--
according to our statistics, we are doing the majority of the 
projects within 1 year, which is--seems a reasonable period of 
time.
    Mr. Tonko. And do we not need to provide sufficient time 
for the public to weigh-in on projects that will operate for 
what could be decades?
    Ms. Miles. Yes, it is very important, and it is built into 
the process, that the public has adequate opportunity to 
participate.
    Mr. Tonko. With that, I thank you very much. And my time 
has----
    Mr. Whitfield. Time has expired. Thank you very much.
    At this time, chair recognizes the gentleman from West 
Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I gather that the genesis of this legislation and this 
hearing are all about grid reliability. We have had numbers of 
meetings here and hearings about grid reliability, and this is 
one way to do it, either hydro or gas, to be able to expedite 
that. There is a study, I know, done by the University of 
Minnesota that talks about the concern for grid reliability 
because they say in the Midwest annually we have about 92 
minutes per year that we lose power, and you in the Northeast 
and in New England the average is 214 minutes are lost 
annually, as compared to Japan, Japan only has 4 minutes a year 
in grid reliability. So my concern is, with a lot of these 
regulations that are being imposed on us, is that things like 
the EIA has come out and said that if we continue on with this, 
we are going to lose 25 percent of our coal-fired generating 
capacity within the next couple of years. The PJM came out with 
a report in 2014 that said after the polar vortex, that we came 
within 500 megawatts for 5 minutes; 700 megawatts for an hour, 
that we came that close to having a massive power shortage in 
America. And that compliments what FERC's Commissioner Moeller 
came out and he said that we had better be concerned about this 
because we are going to have more blackouts, rolling brownouts 
in the Midwest by 2017 if we don't do something.
    So my question to you, Ms. Miles, is--and thank you--you 
have been with the FERC now for 30 years. I understand you 
joined in 1985, so you have seen quite a change perhaps within 
the group. Do you think that there is a real grasp of this 
situation of where we could be faced with brownouts? Do you 
think--was Moeller correct that should be concerned about this 
by the next 2 years, if we continue with these regulations that 
we are going to have shortages?
    Ms. Miles. I can't speak to reliability issues. That is not 
a part of my purview. I can speak to the issues that are here 
on the bills that are before us today, and that my office does 
which--with making sure that we do the best we can under the 
statutes that we have to provide a process that is as efficient 
and provides opportunity for everyone to comment and to address 
the issues.
    Mr. McKinley. Do you think--but under your purview, do you 
have--are you concerned about brownouts?
    Ms. Miles. As I said, that is not a part of my 
responsibility.
    Mr. McKinley. So you have no opinion at all on whether or 
not brownouts could occur in this country?
    Ms. Miles. My responsibility----
    Mr. McKinley. OK, I guess that may or may not be under your 
control, but our concern is we are building back on this grid 
reliability that we have had so many hearings about. This is a 
positive aspect coming out of this legislation that we are 
going to be able to provide more. If coal is going to be 
diminished in its use, at least we ought to be able to come 
back with hydro and gas. And when we have had roundtable 
meetings back in northern West Virginia, that is the biggest 
concern we hear from the drillers. They can't get their gas to 
market. So I am hoping that this legislation can be advanced so 
that we can get the power to the Northeast, we can get the 
power to the east coast so we can have LNG. So I am very 
concerned that FERC seems to be perhaps slowing things down a 
little bit. And I just want to be sure, because that is what 
you were saying, you don't know anything about brownouts, but 
unfortunately, I hope that you can go back and ask some other 
members of FERC what these--if I have misunderstood something, 
but I think we are facing some real concerns in this country if 
we don't get legislation like this adopted so that we can avoid 
the brownouts and help our industry.
    Ms. Miles. I want to make clear that I believe that a--good 
parts of these legislation that are going to--toward the intent 
of making sure that the FERC process is efficient and timely 
are important.
    Mr. McKinley. Sounds like a great answer in Washington, 
doesn't it?
    I yield back the time.
    Mr. Whitfield. Gentleman yields back.
    At this time, recognize the gentleman from Maryland, Mr. 
Sarbanes, for 5----
    Mr. Sarbanes. Thank you, Mr. Chairman. Thanks to the panel.
    So I mean I think your last answer was actually a pretty 
good one in terms of the desire to have things move efficiently 
and timely, and I don't begrudge my colleagues' aspiration for 
all of this process to happen more quickly. The problem is that 
if you put some of these fixed timelines in place, not only is 
there the issue that Congressman Tonko mentioned, which is 
where maybe FERC is being asked or compelled to substitute its 
expertise for that of other agencies in some instances, but if 
there is a timeline being put in place, that is a process 
thing, but it can have an impact on the substantive issues that 
need to be addressed. Most of the conversation here has related 
to the relationship between FERC and other federal agencies in 
terms of trying to get whatever review they are undertaking as 
part of a project done in a timely way, and the goal here is to 
give FERC the ability to kind of ride heard over that process 
and kind of corral the other agencies into a more expedited 
time frame. But as I understand it, Ms. Miles, it also has 
implications for state-level reviews and permits that would be 
issued as well, is that correct?
    Ms. Miles. Yes, there are several federal authorizations 
that are carried out by state agencies, like the water quality 
certification under the Clean Water Act.
    Mr. Sarbanes. Right, and my concern is that states are 
doing their best in a lot of these instances where they have 
been given responsibility on the environmental front, 
certainly, to make sure that these projects are being done in a 
way that don't negatively impact the environment there in the 
state. And that capacity is being pulled away from them if 
there is some kind of a requirement that the whole process be 
finished within a certain period of time. And what I don't 
quite understand is oftentimes, our colleagues on the other 
side are complaining about when the Federal Government gets in 
the way of the states being able to carry out things at the 
state level that they think are important to them, but the 
effect of this statute or bill, if it were to be passed, would 
actually supplant a lot of the states' ability to fulfill its 
obligations to its own residents to make sure things are being 
put in place.
    Specifically, there is a project in Maryland right now, the 
Conowingo Dam, where certification from FERC has been 
forthcoming, but there is still some review that the Maryland 
Department of the Environment needs to do to make sure that the 
water quality standards are being met, and the ultimate 
relicensing is conditioned upon that permit being issued. And 
Exelon Corporation, which owns the Conowingo Dam, has 
undertaken to do a study. They have agreed to do that. That 
process is moving forward. If we had the kind of regime that is 
contemplated by this statute in place, there could be the 
potential situation where, because Maryland wasn't moving fast 
enough to adhere to some time frame that was being imposed upon 
them by FERC, Exelon would have the opportunity to come in and 
sue as a result of them failing to meet that timeline. And then 
you are undermining the concerns of Maryland residents in terms 
of the environment. So I just wanted to point out that it has 
significant implications for the kind of state-level review 
that is important to conduct.
    And, Governor LePage, I thank you for your testimony. I 
understand the frustration, if you are looking at like a small 
dam and you just want to get generation put on top of it, as 
you said, and the process seems to go on and on forever. But I 
think the agency--Ms. Miles spoke to the fact that projects 
that are less complex can be handled in a more expedited way. 
We can maybe look at how to help with that dimension of things 
without imposing across the board this kind of time 
restriction, which could either have the effect of the agency 
saying, you know what, we can't get done in time so we will 
just say no, which wouldn't be good as a result, or issuing 
some kind of permit without really there being a good basis for 
it, and then there be consequences down the line. So I think we 
have to be very careful about that.
    Governor LePage. Well, there are two things about that. 
Number 1 is, on the pipeline we are talking one thing, which 
are usually much larger. Give you an example of what we are 
talking about, these little dams. Take a farmer who is farming 
100 acres of potatoes, and he has a little pond, he has a 
little dam on his property to have pond for irrigation, he 
could put a little generator on that and use the power from the 
dam for his irrigation. FERC has to be involved in that. That 
power is going to be used on the farm. It is like a little 
windmill on your farm. That is all we are asking about. Don't 
believe FERC should be involved in that. I will also say one 
other thing. I can't speak for the other 49 states, but I 
guarantee you in the State of Maine, we will beat the Federal 
Government every time in getting permits.
    Mr. Whitfield. OK. At this time, recognize the gentleman 
from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. I just want to say amen to the Governor of 
Maine. Move to Texas. We like your attitude.
    Mr. Chairman, I am going to concentrate on the section of 
the proposed draft that deals with the Natural Gas Act.
    Back in 2005, we passed a major energy bill called the 
Energy Policy Act of 2005, and in that, we gave the agency, the 
Federal Energy Regulatory Commission, additional authority to 
review pipeline applications. With all due respect, it doesn't 
look to me like the agency is using that authority. If we are 
going to shut down all these coal plants, Mr. Chairman, we are 
going to have to replace them at some point in time with some 
other kind of plant, and in most cases, that is--it could be a 
solar plant, it could be wind, but in a lot of cases it is 
going to be natural gas. So to get the gas to the plant, we are 
going to have to have more pipelines.
    The good news is that we have lots of natural gas to send, 
to use in electricity generation. The bad news is we have to 
get those pipelines built to get it there.
    So my first question to the gentlelady from the FERC, does 
your agency really want to be the lead agency, because it 
doesn't look to me like you do?
    Ms. Miles. I believe that we have taken the role of lead 
agency. We have established regulations to carry out what was 
in EPAct 2005, that the commission is the lead agency and it 
does establish the schedule. And we do have a consolidated 
record. Whether the applicant chooses to take anyone to court, 
that is really their decision and not FERC's decision.
    Mr. Barton. Well, but the proposed draft takes what we did 
in 2005 and gives the FERC some additional enforcement 
authority, not you personally, but your agency doesn't appear 
to want. Would you rather we took all that away and give it to 
the Department of Energy, or the Department----
    Ms. Miles. I don't----
    Mr. Barton [continuing]. Of Commerce? I mean you are either 
going to be the lead agency or you are not, and my preference 
would have FERC be the lead agency. Number 1, you are smaller, 
the staff of the FERC tends to be more results-oriented, I 
think is a fair way to say it, so there are a lot of reasons to 
give you additional authority, but you have to want to use it, 
there has to be a culture at the FERC that you don't mind--if 
you are going to be the lead, that means you are actually going 
to lead. Sometimes you can collaborate, sometimes you can 
consult, but every now and then you have to say this is the way 
it is going to be, let's get it done. So I am serious when I--
the draft as it is currently structured gives additional 
enforcement and enhanced authority to the FERC. Is that 
something that the agency is comfortable with, or would you 
rather we not and we give to some other--make you the non-lead 
agency? It is a fair question.
    Ms. Miles. The overall question, I think we are very well 
positioned to be the lead agency. I think there are some 
aspects of the discussion draft that we would like to have 
conversations about. There are aspects that I think are very 
good. One of the main situations is, is there accountability or 
enforcement if someone does not comply with this. In this bill, 
you do have the aspect, which I have not seen before, of having 
the heads of other agencies, who many not have complied with 
the schedule, report to Congress. That is a measure of 
accountability that has----
    Mr. Barton. Well----
    Ms. Miles [continuing]. Some potential.
    Mr. Barton [continuing]. My time is about to expire, Mr. 
Chairman, but I support the discussion draft's increased 
authority for the FERC if the FERC will use it, and if we can 
get assurances that it is something they are comfortable with. 
And I understand, when you are an independent agency and you 
don't have a lot of people, it is difficult to deal with some 
of these other federal agencies that are much larger and have 
more staff, much more bureaucratic, but the good news is if you 
are the lead agency and you will use that authority, the 
Congress will back you up, and will get more pipelines built 
and will get more energy produced, and will create a better 
economy. So there is an endgame that is a positive, if your 
agency will use the additional authority.
    And with that, Mr. Chairman, I yield back.
    Mr. Whitfield. Gentleman's time has expired.
    At this time, recognize the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Governor, I know you have to get power, and that is a 
problem for a lot of states as we press forward. I will assure 
you that we can ship you all the coal from southwest Virginia 
that the Federal Government will allow you to use. And Ohio. 
Can't leave out my good friend, Mr. Johnson. And West Virginia, 
and for my colleague who spoke earlier.
    That being said, we have, in my opinion, unreasonable 
regulations on the use of coal, unreasonable timetable on a 
number of the new regulations coming into effect. And so the 
natural gas companies, I understand why they are doing it. They 
are proposing all kinds of pipelines be built, not just in your 
area, but they have a number that are coming through western 
Virginia. And so, Ms. Miles, that raises a lot of questions 
that I have for you this morning.
    The pre-filing review phase is not mandatory for natural 
gas pipelines. Should it be?
    Ms. Miles. You are correct, and that is something that we 
actually have wondered about ourselves. I think that there are 
any number of small pipelines that it is not necessary to have 
it, so should the Congress decide that is a place they want to 
go, we would need to have the ability to have the smaller 
projects not involved in it because that would slow it down for 
projects----
    Mr. Griffith. Perhaps----
    Ms. Miles [continuing]. That don't need it.
    Mr. Griffith. Perhaps you can make a suggestion and that 
can be incorporated into this draft in that regard. As a part 
of that, you are holding scoping meetings. In my district, as 
well as in others in western Virginia, it has come to our 
attention that--and I know it is a longer section of pipeline, 
but the greater population is perhaps in the Roanoke and New 
River Valleys, and FERC only had two for the Mountain Valley 
Pipeline--two public hearings or scoping meetings in the 
Roanoke and New River Valleys, had four in West Virginia. The 
Roanoke Board of County Supervisors has requested an additional 
one. And I would say to you that Congressman Goodlatte and 
myself have submitted a letter requesting that you all hold 
another scoping meeting in regard to the Mountain Valley 
Pipeline, and would appreciate if you would look into that.
    As you know, I represent from Roanoke, all the way through 
the west of southwestern Virginia, the Allegheny Islands, and 
Southside. Congressman Goodlatte represents that area from 
Roanoke north, including Mary Baldwin, where I understand that 
you are an alumni.
    Ms. Miles. Yes.
    Mr. Griffith. But it is concerning. One of the pipelines 
actually goes through Augusta County. And so we have 2 that are 
currently on the drawing board, I think a third is about to be 
there. There may be a fourth. This morning in the Roanoke 
Times, there is an op-ed piece by Rupert Cutler, and he 
indicates that as a part of your commission, that preparation 
of a single regional environmental impact statement, 
incorporating all of the pipelines in the region, should be 
done. Are you all doing that with these various pipelines, 
because it is of concern to the region because not only do you 
have the typical problems, but you have the Blue Ridge Parkway, 
the Appalachian Trail, a number of national forestlands that 
have to be crossed by these various pipelines?
    Ms. Miles. I am not prepared to discuss particular projects 
this morning, but we certainly will take all comments into 
consideration when we make decisions about them.
    Mr. Griffith. Is Mr. Cutler, a former member of the Roanoke 
City Council and an environmentalist, is he correct that it is 
a part of your charge though to prepare a single rational 
environmental impact statement incorporating all of the 
regional pipelines?
    Ms. Miles. Our responsibility is to analyze all the 
pipelines, and it is not defined how we do it, but under the 
National Environmental Policy Act, we need to analyze the 
issues, give everyone the opportunity to comment on them, 
display that so the public can comment on it before making any 
decision.
    Mr. Griffith. He also asserts that you all have to look at 
the marketplace, and with all of the different pipelines being 
proposed now in an attempt to figure out a way that by 2020, we 
have to start replacing coal if the Clean Power Plan continues 
to go forward as expected, are you all looking at whether or 
not we have pipelines stepping over each other, and that we 
will have a greater capacity than is necessary? Is that part of 
your charge, and I am going to ask for a yes-or-no answer on 
that, is it just part of your charge? Because I am running out 
of time?
    Ms. Miles. Yes, we need to look at whether there are 
shippers that have been--have signed up for the capacity to 
move that----
    Mr. Griffith. OK.
    Ms. Miles [continuing]. Transportation.
    Mr. Griffith. And then one of the concerns I have is, we 
have had a lot of people upset by these various pipelines, and 
particularly in the Mountain Valley Pipeline. It started off 
coming through Montgomery and Floyd and Henry in my district, 
and part of Robert Hurt's district in Franklin County. Now it 
is looking like it is going to go through Craig and Roanoke 
Counties, and then go through Franklin and Henry. A lot of 
folks have been distressed because it looks like they just put 
a line on the page. Can you encourage the companies to do a 
little more preplanning, and not have such large shifts? We are 
not talking about just within a small border, we are talking 
about, you know, completely different counties being involved, 
different Board of Supervisors, different folks who have to be 
involved. Could you please encourage that as they move forward, 
they try to figure out exactly where they want to go? Or when I 
say exactly, I mean within a reasonable corridor----
    Ms. Miles. Yes.
    Mr. Griffith [continuing]. Before they start putting a lot 
of folks in distress whose land may be taken under eminent 
domain.
    Ms. Miles. That is a part of the pre-filing process is to 
work through with the companies where they are, and to work 
with the public and their thoughts and understanding of where 
is the appropriate siting.
    Mr. Griffith. OK. I appreciate it very much.
    I yield back.
    Mr. Whitfield. At this time, chair recognizes the gentleman 
from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate it, and 
thank our panel for being with us here this morning as well.
    Director Miles, one of the concerns that you raise on page 
17 of your testimony regarding the trial type hearing and the 
provisions under the discussion drafts to move all of these to 
FERC administrative law judges has to do with administrative 
costs, but isn't it true that FERC recovers all of its 
administrative costs for the hydro program from licensees under 
annual charges required by the Federal Power Act?
    Ms. Miles. Yes, that is true.
    Mr. Johnson. OK. All right. And, Director Miles, I 
represent eastern and southeastern Ohio which, as you well 
know, we have been blessed with the Utica and Marcellus Shale 
in that part of the state, which hold an abundance of natural 
gas reserves. One concern that I hear routinely from the folks 
who are employing my constituents to produce this resource, and 
recover this resource, is that if we don't have adequate 
pipeline to get the natural gas to the market, these jobs are 
very much in jeopardy.
    In your testimony, you note that the draft pipeline reform 
legislation has unintended consequences that could slow down 
the process. So my question to you--things like moving some 
activities to later in the process. So my question to you is, 
would you be in favor of moving those things closer up so that 
they can be expedited?
    Ms. Miles. I would like to look at what that would look 
like, and have the opportunity to comment on it.
    Mr. Johnson. OK, and are there other changes that you think 
the committee could make to the legislation to speed up the 
process so that the permitting can get done quicker, and we can 
make sure we save these jobs for those hard-working people?
    Ms. Miles. I don't have anything else to suggest right now. 
I do have some concern that we want to maintain some ability 
for flexibility, and not get too strict so that we can't work a 
little differently with projects that are smaller and may go 
even quicker than this.
    Mr. Johnson. Yes.
    Ms. Miles. So, you know, if you do too much on the outside 
end to try--we want to make sure we are not messing up the ones 
that are moving through really quickly, so----
    Mr. Johnson. Sure. Well, you may have heard recently in our 
region of the state, our region of the nation, the Appalachia 
region of the nation, that, as many times often at the back of 
everybody's mind in Washington, D.C., we have had it announced 
that a projected cracker plant coming into eastern Ohio. 
Thousands and thousands of construction jobs, and thousand 
permanent jobs, multibillion dollar, 5-year project. It is a 
game changer when you are talking about manufacturing coming 
back to our region and those kinds of things. So the pipeline, 
to get that gas to these processing plants, and then to send 
that raw material to manufacturers, it is critically important 
to the economic viability of our region. So I appreciate that 
you would consider those things.
    Let me ask you one other. Your testimony states that since 
the EPA Act of 2005, the commission has been able to act on 92 
percent of natural gas project applications in less than 1 year 
after the application is filed. What do you mean by act? How 
many of these actually received all of the required federal 
authorizations, and how long did that take?
    Ms. Miles. What I mean by act is that the commission has 
acted.
    Mr. Johnson. But have they approved them----
    Ms. Miles. Many----
    Mr. Johnson [continuing]. Have they gotten all the way 
through the process?
    Ms. Miles. They have completed the process at the 
commission. Some orders that are issued may require an 
authorization from another federal agency. Those usually come 
through fairly timely.
    Mr. Johnson. But you have done your part of it----
    Mr. Whitfield. Excuse me just one minute.
    Ms. Miles. We did our part, yes.
    Mr. Johnson. OK.
    Mr. Whitfield. Excuse me one minute. When you say--are you 
talking about--that the FERC application has been granted, or--
--
    Ms. Miles. Yes. The----
    Mr. Whitfield [continuing]. The certificate has been----
    Ms. Miles [continuing]. Commission has authorized it and 
included in it the conditions that----
    Mr. Whitfield. OK. Thank you.
    Ms. Miles [continuing]. The company needs to apply.
    Mr. Johnson. Thanks for that clarification, Mr. Chairman, 
and I yield back.
    Mr. Whitfield. At this time, recognize the gentleman from 
Oklahoma, Mr. Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman. And I appreciate the 
witnesses for being here.
    And, Ms. Miles, I must say, we have a lot of directors, 
secretaries that come in here, and a lot of times their 
demeanor is, in my opinion, almost despicable, and I want to 
commend you on how you are handling yourself today. I think all 
of us will say that we are wanting to work with you, we are 
wanting to work with the Governor, we are wanting to get issues 
resolved, but we are having a hard time understanding where 
FERC is going. And I understand you control, you know, a small 
piece of that pie, but we all are having problems. I mean one 
of the most common complaints I have in my district, I 
represent the eastern part of Oklahoma, the entire eastern side 
of Oklahoma, and we have many lakes and several of them are 
controlled by FERC, and it seems like FERC is growing in their 
influence in our state. In particular on the shorelines. And, 
Ms. Miles, you mentioned on page 13 in your testimony that the 
Federal Power Act determined that matters related to shoreline 
use, such as recreational flood control and environmental 
protection, are sometimes more of a local concern and, thus, 
should be resolved by an entity that is required to consider 
the overall public interest. Could expand on that comment a 
little bit more?
    Ms. Miles. Yes. Congress established the regime in the 
Federal Power Act that, in exchange for the use of the public 
waters of the United States, that licensees need to satisfy 
public interests, and the public interest might be recreation, 
it might be the environmental values of the area.
    Mr. Mullin. But what I am trying to get to, are you saying 
that that should actually be determined by FERC, it shouldn't 
be determined by the state?
    Ms. Miles. That is the regime that was established by 
Congress. The commission only has responsibility over the lands 
that are owned or controlled by the licensee. It does not have 
any responsibility over lands that are under private control. 
So the shoreline management plans that you are referring to 
would only cover that licensee-owned portion of the project.
    Mr. Mullin. Completely agree with that, but I represent an 
area called Grand Lake which is very similar to the Lake of the 
Ozarks, and also--and Missouri, obviously, and there was an 
issue going on in--it was either Lake of the Ozarks or Table 
Rock Lake, I think it was Lake of the Ozarks, where, basically, 
FERC has come up onto the shorelines and was redrawing the 
boundary. And last year, I sat in the chairman's office and we 
asked FERC about this, and they basically described the 
situation saying that, well, we are using different boundaries 
now because, back then we used basically the stick surveying 
mark, and now we are using GPS, and the old boundaries 
basically aren't acceptable anymore. And so FERC is injecting 
themselves on telling people how big their house can be on the 
shoreline, which they own, telling people how many boat slips 
they can have, and telling them that the existing structures 
that was built inside the boundaries are no longer acceptable 
and have to be torn down. And it threw a whole big mess on the 
shorelines that now we are having the same issue in Grand Lake. 
And I thinking, well, FERC doesn't even have the ability to 
control what they have. I mean we are talking about pipelines, 
we are talking about infrastructure, we are talking about 
things that you already have and you can't control it, and now 
you are inserting yourself farther onto the shorelines. And the 
way I am understanding it is that you are in agreement with 
that, that you should be inserting yourself farther on to the 
shorelines, when actually, the states would be more capable of 
controlling that. Wouldn't you agree with that?
    Ms. Miles. I can't speak to the individual project that you 
are raising.
    Mr. Mullin. I understand you can't speak to it, but if I am 
understanding it that you are saying that FERC should probably 
take control of that area, but what I am saying is don't you 
agree that maybe the state should? I mean you can't handle what 
you are getting to right now. You don't have the manpower or 
the capability to even do something that is as simple as permit 
gas lines.
    Ms. Miles. What I am saying is that Congress basically 
authorized the regime that the license includes the land that 
is necessary for project purposes, which includes the 
generation of electricity as well as the protection of both 
developmental and non-development or environmental resources.
    Mr. Mullin. So how can I help you get this off your plate 
then? What would you like to see Congress do with this regime, 
as you are referring to, because we refer to the FERC a lot as 
the regime too, and so how do I help you get rid of this regime 
that you are talking about?
    Ms. Miles. If Congress wants to change the balance, then we 
certainly would be----
    Mr. Mullin. Would you be supportive of it?
    Ms. Miles. I would need to see what it looked like.
    Mr. Mullin. OK, thank you.
    Mr. Chairman, I yield back.
    Mr. Whitfield. Gentleman yields back.
    And that concludes the questions for the first panel. Once 
again, Governor, thank you for being here. Ms. Miles, thank you 
for being here. We look forward to working with both of you as 
we continue our efforts to develop an energy package. And thank 
you again for your time, and we will be in touch.
    At this time, I would like to call up the second panel. On 
the second panel today, we have 6 witnesses. I am not going to 
introduce everybody immediately, but I will introduce you as 
you are recognized to give your opening statement. And so if 
you all, when you get time, would have a seat. I want to thank 
all of your for joining us today, and we appreciate also your 
patience.
    And our first witness this morning will be Mr. Donald Santa 
on the second panel. He is the President and CEO of the 
Interstate Natural Gas Association of America. Mr. Santa, 
thanks again for being with us. And each one of you will be 
given 5 minutes for your opening statement, and then we will 
open it up for questions.
    So, Mr. Santa, you are recognized for 5 minutes.

 STATEMENTS OF DONALD F. SANTA, PRESIDENT AND CEO, INTERSTATE 
NATURAL GAS ASSOCIATION OF AMERICA; CAROLYN ELEFANT, MEMBER OF 
 THE BOARD, THE PIPELINE SAFETY COALITION, PRINCIPAL, THE LAW 
OFFICES OF CAROLYN ELEFANT; JOHN COLLINS, MANAGING DIRECTOR OF 
    BUSINESS DEVELOPMENT, CUBE HYDRO PARTNERS; RICHARD ROOS-
  COLLINS, GENERAL COUNSEL, THE HYDROPOWER REFORM COALITION; 
RANDY LIVINGSTON, VICE PRESIDENT, POWER GENERATION, PACIFIC GAS 
   AND ELECTRIC COMPANY; AND JOHN J. SULOWAY, BOARD MEMBER, 
NATIONAL HYDROPOWER ASSOCIATION, PRINCIPAL, WATER AND POWER LAW 
    GROUP, PC (ON BEHALF OF THE HYDROPOWER REFORM COALITION)

                  STATEMENT OF DONALD F. SANTA

    Mr. Santa. Good morning, Chairman Whitfield, Ranking Member 
Rush, and members of the subcommittee. My name is Donald Santa, 
and I am the President and CEO of the Interstate Natural Gas 
Association of America, or INGAA. INGAA represents interstate 
natural gas transmission pipeline operators in the U.S. and 
Canada. Our 24 members operate the vast majority of the 
interstate natural gas transmission network, which is the 
natural gas industry analogue to the interstate highway system.
    The approval and permitting process for interstate natural 
gas pipelines has become increasingly challenging. While this 
has been a good, albeit complex process, there have been some 
trends in the wrong direction. What was once orderly and 
predictable is now increasingly protracted and contentious. 
Most energy experts agree that we will need more gas pipeline 
infrastructure to connect the new supplies of natural gas made 
available by the shale revolution, and to support increased 
demand for gas from manufacturing and petrochemical sectors, 
electric generators, and other end-users. We need a process 
that balances thorough environmental review and active public 
involvement with orderly, predictable, and timely approval and 
permitting of necessary energy infrastructure.
    If enacted, the draft bill before the subcommittee today 
would modestly improve the permitting process by introducing 
additional transparency and accountability for federal and 
state permitting agencies. We support these steps, but continue 
to urge Congress to create real consequences for agencies that 
fail to meet reasonable deadlines. Entities proposing to 
construct or expand or modify an interstate natural gas 
pipeline must seek a certificate of public convenience and 
necessity from the Federal Energy Regulatory Commission. While 
the Natural Gas Act provides FERC with exclusive authority to 
authorize the construction and operation of interstate natural 
gas pipelines, a variety of other permits and authorizations 
are necessary in order to construct and operate such a 
pipeline. And I think as evidenced by Mr. Johnson's question a 
few minutes ago, while a lot of the dialogue this morning has 
been about the timeliness of FERC's action under the Natural 
Gas Act, the focus of the draft bill really is the timeliness 
of these other permits and authorizations that are necessary 
before a pipeline can be constructed.
    The Energy Police Act of 2005 provided FERC with new 
authority to oversee the pipeline permitting process. First, 
Section 313 of EPAct 2005 clarified that FERC is the lead 
agency under the National Environmental Policy Act for 
interstate natural gas infrastructure projects. Second, this 
section empowered FERC to establish a schedule for all other 
federal authorizations. In other words, all federal and state 
permits required under federal law. Section 313 stated that 
other federal and state permitting agencies ``shall cooperate 
with the commission and comply with the deadlines established 
by the commission.'' The draft legislation would codify the 
FERC rule that established a deadline 90 days after the 
completing of FERC's NEPA review for all agencies acting under 
federal authority to make their final permitting decisions.
    The beginning of the 90-day permitting deadline would not 
be the first time a permitting agency would have seen an 
application from a pipeline developer. By the time FERC 
completes its NEPA review, it reasonably can be expected that 
the pipeline project developer will have been engaged in a 
dialogue with the various permitting agencies for 12 to 18 
months, or perhaps even longer. Consequently, permitting 
agencies will have had ample time to review a proposed project, 
suggest changes and modifications, and render a final decision.
    Although EPAct 2005 authorized FERC to establish a deadline 
for permitting agencies, it did not create a mechanism for FERC 
to enforce such deadlines. Instead, a pipeline project 
developer may challenge a permitting agency's tardiness or 
inaction in federal court. Doing so, however, is both time-
consuming and risky, and this option seldom has been exercises. 
The lack of permitting schedule enforceability has become the 
Achilles' heel in the pipeline approval and permitting process. 
Agencies are free to ignore FERC's deadline in what is 
currently a consequence-free environment.
    Why is the timely approval of pipeline permits important? 
Pipeline infrastructure is a necessary predicate for fully 
realizing the benefits of America's natural gas abundance. 
Abundant natural gas spurred by shale development already has 
had a profound effect on the United States' economy.
    We hope that Congress will ensure that there are 
consequences associated with pipeline permitting delays so that 
this critical energy infrastructure can be constructed on a 
timely basis. Transparency is certainly important, yet it needs 
to go hand-in-hand with clear accountability for agency 
inaction or delay.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Santa follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Mr. Santa, thank you very much for that 
opening statement.
    Our next witness is Ms. Carolyn Elefant, who is a Member of 
the Board of the Pipeline Safety Coalition, and Principal of 
the Law Offices of Carolyn Elefant. So thank you for being with 
us, and you are recognized for 5 minutes.

                  STATEMENT OF CAROLYN ELEFANT

    Ms. Elefant. Thank you, Chairman Whitfield. Thank you, 
Chairman Whitfield, and good afternoon to you and to Ranking 
Member Rush, and the members of the subcommittee.
    As you mentioned, my name is Carolyn Elefant. I am on the 
Board of the Pipeline Safety Coalition, which is a nonprofit 
organization that serves as a clearinghouse for factual and 
objective information to increase public awareness about 
pipelines, and also to promote environmental and public safety. 
In addition, in my capacity as an attorney, I represent 
landowners, conservation trusts, community governments, and 
other entities that are directly impacted by pipeline 
infrastructure.
    My testimony today will highlight two of the coalition's 
concerns regarding the draft legislation, which essentially 
requires federal and state agencies with permitting authorities 
over pipelines to adhere to deadlines established by FERC.
    First, the coalition believes that the legislation is 
unnecessary. There is little evidence to suggest that it is 
actually the state and federal permitting agencies that are 
responsible for delays in development of pipeline 
infrastructure. And to the extent that they are, companies 
already have a mechanism in place to enforce those deadlines, 
which is through bringing suit in federal court; a mechanism 
that has only been used twice since it was enacted 10 years ago 
in the Energy Policy Act.
    Second, the coalition's greater concern is that the 
proposed legislation's approach to expediting the permitting 
process, such as requiring federal and state permitting 
agencies to confine the scope of their environmental review to 
those issues identified by FERC, would subordinate the 
regulatory mandates of FERC's sister federal agencies, as well 
as state agencies implementing delegated federal authority 
under statutes like the Clean Water Act, the Clean Air Act, and 
the Coastal Zone Management Act.
    So the first issue I wanted to discuss as to why this 
legislation isn't necessary relates to the delays, and from our 
perspective it is not clear that these state and federal 
permits are holding up the process. The way the INGAA has 
defined delay in its 2012 report that it commissioned is a 
situation where a state or federal permit is not completed 
within 90 days after FERC completes its environmental review. 
But there are many reasons for why this can happen. And first 
of all, the processes are not always properly aligned. So a 
company may not initiate the state permitting process until 
several months after it started the FERC certificate process, 
and that can lead to a misalignment at the end. In addition, 
state agencies also have--the statutes provide them with a 
year, in some instances, to act on a permit. So if you start 
the process late, it is going to run over at the end.
    The second issue related to delay is that many times a 
delay may occur because there is a change in the root, or a 
different alternative is proposed down the line. And there are 
instances where a company knows about this initially, but 
rather than trying to accommodate and negotiate that issue, 
they will hedge their bets and figure that if they ignore it, 
it will go away. And it comes back to bite them at the end of 
the process. I have been involved in at least two proceedings 
where issues raised by state agencies early on in pre-filing 
were ignored for years later, and when it finally came time to 
issue the permit, and it appeared that the state permit wasn't 
going to issue, those issues had to be dealt with and it 
created some delay.
    And last, as I mentioned, to the extent that there is 
delay, there is a mechanism that Congress put in place 10 years 
ago; the ability to bring suit in District Court. I would 
respectfully disagree with my colleague, Mr. Santa, as to the 
difficulty of this. It has been used twice. I was involved, 
representing interveners in one of those proceedings. It is 
extremely expedited, it is about 3 months, and the company in 
this particular situation received relief very quickly. And 
even with this expedited schedule, I, representing a group of 
landowners, was still able to participate. So that is an option 
that is highly underutilized, and suggests to me that perhaps 
companies don't believe that they have enough of a case to be 
able to bring to court to show delay. And so they are not using 
this provision because it isn't as necessary as has been 
suggested.
    As I mentioned before, really from our perspective, the 
most troubling aspect of the legislation is it seeks to 
eliminate delay really be eliminating differing perspectives. 
For example, one of the provisions that has been discussed is 
that, when making a decision with respect to federal 
authorization, the federal and state agencies shall defer to 
FERC's scope of the environmental issues. And this is very 
troubling because state agencies and federal permitting 
agencies have different mandates. They evaluate different 
things in the environmental process. And you will sometimes see 
that they may be identifying issues that FERC considers not 
relevant to the certificate process. And that makes sense, but 
these are different mandates. So we don't see that there is any 
justification to compel a federal or federally backed agency to 
subordinate its regulatory mandates to the goals of the Natural 
Gas Act, and indeed, we can't think of any other federal 
industry or federally regulated industry that has been granted 
a similar trump card.
    So those are some of the concerns that we have, and I look 
forward to participating in the rest of this hearing. Thank 
you.
    [The prepared statement of Ms. Elefant follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. All right, thank you very much, Ms. Elefant.
    At this time, our next witness is Mr. John Collins, who is 
the Managing Director of Business Development at Cube Hydro 
Partners. You are recognized for 5 minutes, Mr. Collins.

                   STATEMENT OF JOHN COLLINS

    Mr. Collins. Good morning, Chairman Whitfield, Ranking 
Member Rush, and distinguished members of the subcommittee. My 
name is John Collins, and I am the Managing Director of 
Business Development for Cube Hydro Partners, a small, women-
led business that owns and operates hydroelectric plants in 
several states. The company also engages in new hydropower 
development through the building of new plants at existing 
dams. I have over 25 years of experience in the energy 
industry, including previous experience in the development of 
over 3,500 megawatts of merchant power natural gas-fired plants 
during my career at Constellation Energy. I spent over 22 years 
with Constellation Energy Group in various leadership 
positions, including Chief Risk Officer, Chief Financial 
Officer, and Senior Vice President of Integration. I am pleased 
to have the opportunity to appear before you this morning to 
discuss the importance of modernizing and improving the 
hydropower licensing and relicensing process to make it more 
efficient and transparent, while supporting environmental 
protections.
    Cube Hydro's current portfolio of hydrogenation assets 
consist of 13 plants that comprise over 106 megawatts. The 
company is committed to developing, owning, and operating 
hydropower facilities across the United States. We are actively 
pursuing the potential development of new projects on existing 
dams.
    The National Hydropower Association and the Oakridge 
National Laboratories cite the potential to retrofit more than 
54,000 dams in the United States, bringing more than 1,200 
megawatts of new renewable energy onto the grid, while creating 
hundreds of thousands of new jobs, and mitigating 40 million 
tons of greenhouse gas emissions annually. These opportunities 
are tremendous. However, the length, expense, and uncertainty 
of the hydro licensing approval process significantly 
disadvantages development. Licensing can extend for nearly a 
decade, and such a long, protracted, and uncertain regulatory 
process hampers investment by increasing regulatory risks, 
financial risks, and implementation risks, thus, driving up the 
cost of new hydropower at existing dams. The time and energy to 
secure the licenses and permits contributed to development 
costs that can be between 25 and 30 percent of the overall cost 
of the project.
    Cube Hydro experienced these regulatory challenges 
firsthand while developing its 6 megawatt Mahoning Creek 
Hydroelectric Project in western Pennsylvania. The overall 
regulatory process for the project spanned almost 10 years, 
causing significant difficulties in obtaining financing, and 
securing a long-term power purchase agreement. Although the end 
result is and continues to be a success story, the development 
process was a significant challenge.
    To facilitate hydropower development, the regulatory 
process should be streamlined to eliminate redundancies and 
provide developers and investors with added certainty. Removing 
duplication in the process, and placing a single agency in 
charge of managing the entire approval process is needed. Such 
accountability is an essential attribute of efficient 
management and good government. The implementation of a 
streamlined regulatory process also needs to look to 
standardize the requirements associated with issuing a license 
to eliminate any competing requirements. We are particularly 
supportive of the provisions that will minimize duplications of 
studies and license proceedings, simplify the regulatory 
process for smaller projects, authorize new studies only when 
the FERC determines that additional data is necessary, weigh 
the cost-benefit analysis of licensing requirements, implement 
a use-it-or-lose-it provision for submitting a pre-application 
document within 3 years, as opposed to the current system which 
allows up to 8 years without developing the project. The end 
result is the establishment and enforcement of project 
timelines. These and other initiatives would help to simplify 
licensing requirements, and facilitate hydropower project 
development and relicensing. We believe that hydropower is, and 
should remain, an important component of and environmentally 
sustainable U.S. energy policy. Providing the ability to invest 
private capital to upgrade, modernize, and stabilize this 
resource is critical to maintaining and growing the currently 
installed base, which is the largest of any renewable resource 
in the United States. Hydropower is clean, renewable base load 
energy that helps to stabilize our electric grid. Federal 
policies should be adopted to encourage the development of this 
vast resource. Cube Hydro believes the draft legislative 
proposals under consideration by the subcommittee today are a 
reasoned and responsible modernization of federal licensing 
legislation to allow for increased development of this 
important resource.
    I thank the subcommittee for this opportunity to testify on 
hydropower's role in meeting our nation's energy and economic 
objectives, and look forward to answering your questions.
    [The prepared statement of Mr. Collins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you, Mr. Collins.
    And our next witness is Mr. Richard Roos-Collins, who is 
General Counsel for the Hydropower Reform Coalition, and 
Principal in the Water and Power Law Group, and he is 
testifying on behalf of the Hydropower Reform Coalition. So you 
are recognized for 5 minutes, Mr. Collins.

               STATEMENT OF RICHARD ROOS-COLLINS

    Mr. Roos-Collins. Thank you, and good afternoon, Mr. 
Chairman, ranking minority members. My name is Richard Roos-
Collins. I appear on behalf of the Hydropower Reform Coalition.
    Our conservation groups represent two million people who 
fish, boat, and hike on the lands and waters of these 
hydropower projects. Since 1992, our coalition has reached 170 
settlement agreements with licensees, including Pacific Gas and 
Electric, and also New York Power Authority. We worked with the 
National Hydropower Association and other stakeholders to 
negotiate the 2005 integrated licensing process which FERC 
uses, and the 2013 Hydropower Regulatory Efficiency Act.
    We support the goal of expedited licensing consistent with 
the quality of the license. We do not support specific 
mechanisms in the discussion draft that would undercut 
cooperation between FERC and other agencies.
    Under the draft, FERC would control the schedule for the 
work of other agencies, determine facts relevant to fishways 
and federal reservations, and exclusively administer a license 
once issued. This would disrupt the cooperative approach that 
has succeeded under the Federal Power Act since 1935. Section 
10(a) of that Act requires that each license must be best 
adapted to a comprehensive plan for power, flood control, water 
support, fish, and recreation. This mandate is achieved through 
cooperation. FERC determines overall how to advance the public 
interest, and it issues the license. Other agencies write 
specific articles for fishways, federal reservations, and water 
quality. FERC and those other agencies work hard to manage the 
tradeoffs between competing uses of waters, looking out two 
generations. In the modern era, licenses have increased power 
capacity by 4 percent, relative to the original licenses, and 
are providing billions of dollars of regional economic benefits 
associated with non-power uses. At one project alone, 
recreation, including family recreation, will produce more than 
$330 million in such benefits over the next 30 years.
    Now, let me turn to time. A licensing process is expected 
to take 5 years or less. Why that period? The license is based 
on the studies conducted to evaluate how best to manage trade-
offs over two generations. Should licensings end on time? Yes. 
And, in fact, most do. Are some licensings delayed today? Yes. 
Roughly \1/4\. Do delays occur merely because agencies, other 
than FERC, write license articles? No.
    Let me give an example. Under the 2005 Energy Policy Act, 
the federal agency that prescribes a fishway must provide a 
trial on disputed issues. These trials have consistently ended 
on time; 6 months or less. The assigned judges did this by 
knocking heads. Section 1303 of the discussion draft would move 
these trials to FERC. Would that save time? No. It would just 
transfer the authority to resolve those triable issues.
    We support commonsense mechanisms that save time and money 
by improving coordination between FERC and other agencies. Cut 
red tape? Yes. So let me make four suggestions.
    First, there should be a joint environmental document in 
each licensing. Today, there tend to be several. That is 
because FERC requires an agency cooperating in FERC's own 
document to forego the right to be a party. Faced with that 
catch 22, states tend to prepare their own documents for their 
water quality certifications. Half of the delayed licensings 
are in California, and that is largely why.
    Second, a joint study plan should provide the information 
necessary for all license articles.
    Third, there should be a comprehensive schedule, and an 
agency dragging its feet should be subject to a judicial 
mandate.
    And lastly, we support the procedure used by former FERC 
Chair, Pat Wood, in the early 2000s. He held an annual hearing 
solely to address delayed licensings. He grilled his staff and 
parties alike to isolate and fix causes for delay. The backlog 
shrank very quickly.
    We are committed to work with this committee, industry, 
agencies, and other stakeholders to develop reforms that 
expedite licensings consistent with the public interest in 
enhancing power and other beneficial uses of our nation's 
waters.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Roos-Collins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you, Mr. Roos-Collins.
    And our next witness is Mr. Randy Livingston, who is Vice 
President of Power Generation, at Pacific Gas and Electric. And 
you are recognized for 5 minutes.

                 STATEMENT OF RANDY LIVINGSTON

    Mr. Livingston. Good morning, and thank you.
    PG&E is one of the nation's largest combined electric and 
natural gas utilities, with more than 22,000 employees serving 
16 million Californians. We are also the owner and operator of 
America's largest investor-owned hydro system. With 26 FERC 
licenses, we are regularly in the process of relicensing, and 
in fact, today, we have seven projects in one phase or another 
of relicensing.
    Our system generates 3,900 megawatts of safe, clean, 
reliable, and affordable power for millions of Californians. It 
has been crucial in integrating other renewable energy sources. 
In addition, it provides water supply, recreation, flood 
control, taxes, and other benefits. Hydropower is an invaluable 
resource. It is one that our country can and should do more to 
capitalize on.
    We appreciate all the efforts done to date by past 
Congresses to advance hydroelectric generation. We believe this 
Congress has taken a very important step with the release of 
the discussion draft on hydropower regulatory modernization, 
and by holding today's hearing.
    PG&E believes it is critical for hydroelectric power 
generators to be able to move through the relicensing processes 
more efficiently, more affordably, so we can implement the 
environmental protections, community improvements, and facility 
upgrades more quickly than we can today.
    We believe the discussion draft accomplishes this fairly 
and effectively, while maintaining important environmental 
protections and community interests. In particular, it does 
this by clarifying FERC's exclusive authority to balance 
beneficial uses, and to enforce, amend, or otherwise administer 
all aspects of a FERC license. It improves the licensing 
process by allowing FERC to establish standards and deadlines 
for federal authorizations, it clarifies the scope of federal 
agencies' authority under Sections 4(e) and 18 of the Federal 
Power Act, and required those agencies to explain the effects 
of their conditions or prescription on other recognized 
benefits, such as energy production, flood control, and water 
supply. And it allows the licensee to seek a review of federal 
authorization or delay an issuance in the Federal Court of 
Appeals.
    We believe the commonsense and basic reforms can make 
hydropower more efficient, while keeping in place the 
environmental protections and other benefits that we all agree 
are critical.
    PG&E places a priority on using collaborative process to 
relicense a facility, as both understanding and incorporating 
the interests of stakeholders is critical. However, as it 
stands today, the current process is complex, protracted, 
leading to higher costs and delayed implementation of 
improvements and upgrades. To put this into perspective, PG&E's 
recent experiences, even for a medium-sized license, it 
consistently takes over 7 years to renew an existing license 
for an existing facility, and often well over 10 years. The 
cost just to complete the process for the continued operation 
of a facility can run over $50 million, and implementing the 
requirements of the new license can run into $100 million. All 
of these are costs that are ultimately born by the energy 
consumer.
    Relicensing process involves numerous federal and state 
agencies, and stakeholders with interests that may not always 
align. Therefore, we believe the process should be improved to 
focus on the following. Ensure environmental protections and 
preserve hydropower, achieve the multiple benefits of 
relicensing sooner, reduce cost, improve predictability, and 
enhance the collaborative process to be results and solution-
oriented, and avoid conflicting license conditions.
    We would recommend a number of very specific improvements 
to address these license--these licensing matters, including 
improving coordination between federal and state environmental 
reviews, including an enforced discipline schedule for all 
parties involved, better defining the extent of authorities by 
federal agencies, improving federal and state agency 
coordination and transparency, and finally, by establishing a 
process for a single challenge opportunity before FERC to 
resolve issues or conflicting license restrictions. For 
example, in California, we are working to help our State Water 
Board environmental review follow a parallel path with the 
federal reviews, including relying on the same data and 
studies. To date, even though our State Water Board 
participates in relicensing, this process has generally been 
sequential and separate, at times resulting in conflicting 
license conditions. Today, it is up to the licensee to try and 
resolve those. As such, conditions have sometimes extended to 
private lands where there is no clear nexus to the project.
    The discussion draft being debated here would accomplish 
many of these objectives. Given the focus of this committee on 
crafting and advancing energy policy for the 21st century, you 
and your colleagues have an important opportunity to bring 
meaningful change to the hydropower relicensing process, and to 
assure that it is consistent with needs and opportunities today 
and many years ahead.
    PG&E looks forward to working with you.
    [The prepared statement of Mr. Livingston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thanks, Mr. Livingston.
    And our next witness is John Suloway, who is Board Member 
of the National Hydropower Association, and you are recognized 
for 5 minutes.

                  STATEMENT OF JOHN J. SULOWAY

    Mr. Suloway. Good afternoon, Mr. Chairman, Ranking Member 
Rush, members of the subcommittee. My name is John Suloway. I 
appear today on behalf of the National Hydropower Association. 
I am on the Board of Directors, serve as Secretary of the 
Executive Committee, and I was President of NHA about 10 years 
ago.
    NHA appreciates and commends the work this committee and 
Chairman Upton, and also the discussion drafts proposed by 
Representative Kathy McMorris Rodgers. I am honored to be here 
today to discuss this issue, particularly with the focus on 
hydropower regulatory modernization.
    Let me tell you a little bit about myself. I grew up in the 
electric utility industry. I have focused my entire career on 
project development, licensing, and environmental research. 
Most of that time was with the New York Power Authority. I 
retired from NYPA at the end of the year as the Vice President 
of Project Development Licensing. I loved my job, I loved the 
power authority, and I particularly loved working in 
hydropower.
    As you can tell from my written testimony, NYPA is one of 
the leading producers of electricity in the State of New York, 
and we have one of the largest hydropower systems in the entire 
country. My job and my group focused on project development and 
licensing of both generation and transmission projects. We 
worked a great deal on hydropower, but also I developed 
combined cycle plants and simple cycle turbine projects that 
burn natural gas, and also high voltage transmission lines.
    In my testimony, I am trying to convey four basic points. 
Number one, hydropower is a great technology. It has a proven 
track record of being a dependable and cost-effective source of 
generation. Also, in today's world where the norm is change, 
hydropower is a crucial tool for maintaining the reliability of 
the changing electrical grid, while helping to address climate 
change. These characteristics made hydropower very attractive 
for economic development. There is a significant potential for 
increased hydropower capacity which is not being realized.
    Point two, the development of more hydropower should be a 
key component of America's energy portfolio. We have thousands 
of megawatts that can be developed at existing dams that are 
not being developed, in part because the hydropower licensing 
process is protracted, costly, and risky. And us folks in the 
electrical utility industry tend to be risk-adverse.
    Point three, we, and I mean the big we here, industry, 
regulators, nongovernmental organizations, and Members of 
Congress, we have been working since the 1990s to improve the 
hydropower licensing process. We have made progress. There have 
been improvements in the licensing and administration of 
hydropower, but additional work needs to be done to make the 
process more efficient so a significant portion of that 
undeveloped capacity can be developed.
    My fourth point. The goals and objectives expressed in the 
discussion draft bills would help to make hydropower more 
attractive to developers and investors, while ensuring careful 
consideration of environmental values and the protection of 
natural resources. Protecting the environment and natural 
resources is important, and is a commitment that the hydropower 
industry takes seriously.
    In conclusion, I have made a career of navigating these 
archaic processes. And that being said, I have come to the 
conclusion that we have a very important opportunity here that 
we should not miss. Like I mentioned before, incremental 
changes in the FERC process have improved the process, and as 
part of making those changes, we have created relationships, we 
have created friendships, and we can build on that 
communication improvements as we move forward. But when you 
stand back and you look at the fundamental question that is in 
front of us, why shouldn't we be able to license a hydropower 
project for the same amount of time and the same amount of 
money as it does for a combined cycle plant that is burning 
natural gas? And when you look that question in the face, you 
know we have more work to do.
    So thank you for providing me this opportunity to testify 
on behalf of hydropower's role in meeting our nation's 
environmental, energy, and economic objectives, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Suloway follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you, Mr. Suloway. And thank all 
of you for your testimony.
    And at this time, I will recognize myself for 5 minutes of 
questions.
    It is obvious to everyone that the two subject matters we 
are looking at is natural gas pipelines, and we are looking at 
hydropower. And, Mr. Roos-Collins, I think I know where 
everybody stands on this draft. You focused on hydropower. You 
indicated--are you--did you say that you believe that there are 
some problems at FERC relating to licensing and relicensing of 
hydropower that need to be addressed, or I know that you are 
opposed to this particular draft, but are there some areas that 
you do think needs to be addressed?
    Mr. Roos-Collins. Yes, Mr. Chairman.
    Mr. Whitfield. OK. Thank you. I just wanted to clarify 
that.
    And, Mr. Livingston, would you say that from your 
perspective at PG&E, is licensing more of an issue or is 
relicensing more of an issue?
    Mr. Livingston. Well, for us it is relicensing. I think as 
we look at our portfolio, we are going through a significant 
period of relicensing and are regularly involved in it. The 
licensing is a critical issue for development of the new 
resources on, for instance, non-power dams----
    Mr. Whitfield. Right.
    Mr. Livingston [continuing]. And for the licensing 
potential for pump storage development to help integrate 
other----
    Mr. Whitfield. Right. Now, you said you had seven active 
relicensing projects right now, I believe, and I think your 
testimony talked about the cost would be $20 to $50 million. 
And I think you mentioned $100 million. What was that about?
    Mr. Livingston. That is about license implementation costs. 
So not only do you have the cost to get the new license, then 
you have to comply with all the new terms.
    Mr. Whitfield. And my understanding, I am not an expert, 
but my understanding, the relicensing is almost as cumbersome 
as the licensing process, is that correct?
    Mr. Livingston. Yes, it is the same.
    Mr. Whitfield. It is the same, OK. OK.
    And, Mr. Santa--well, back to you, Mr. Livingston. I have 
heard about one relicensing project that you all have been 
involved in that has gone on for a number of years. I don't 
know specifically the information about it, but could you give 
us a recent example of a challenging and cumbersome hydropower 
licensing proceeding that you are going through that has been 
particularly frustrating?
    Mr. Livingston. Well, I think just our most recent work is 
on our Desalba-Centerville Project. It is a 26 megawatt 
project. Lots of important resource issues there to work 
through. That process is currently in its eleventh year. We are 
well over $26 million, well over $1 million per megawatt, to go 
into relicensing. And we are--just got a water quality 
certificate--a proposed water quality certificate that has 
competing license conditions with everything that we have been 
talking about for the previous 11 years. And we are going to 
have to work to--now to resolve those before a final license 
can be----
    Mr. Whitfield. So is it this primarily a federal issue or a 
state issue, or----
    Mr. Livingston. It is combined. The State Water Board is 
working under the Clean Water Act.
    Mr. Whitfield. OK.
    Mr. Livingston. The concept that I think many of us are 
trying to work through is how we can make the same set of 
studies, the same----
    Mr. Whitfield. Right.
    Mr. Livingston [continuing]. Time frame, and the same 
process all come together at the end so----
    Mr. Whitfield. And how many years have you been involved in 
this project?
    Mr. Livingston. It started its relicensing 11 years ago.
    Mr. Whitfield. Eleven years ago. And it is still not 
resolved.
    Mr. Livingston. It is still not resolved.
    Mr. Whitfield. OK.
    Mr. Santa, Mrs. Elefant had mentioned in her testimony that 
from her perspective, there is really no need for change, and 
she specifically said if you have a problem, you can file this 
lawsuit. I am assuming that you don't view that as a practical 
solution because of cost.
    Mr. Santa. No, we don't view that as a practical solution, 
Chairman Whitfield. For example, Ms. Elefant mentioned two 
instances in 10 years that someone had availed themselves of 
that; one of which was resolved reasonably quickly, but the 
other one involved multiple years, two trips to the U.S. Court 
of Appeals for the Second Circuit, and ultimately, the project 
applicant ended up walking away from the project after 
investing years and significant resources in trying to develop 
that project.
    I think it is important to remember here that the current 
law would compel the applicant to sue the very agency from 
which it is trying to get the permit. Is that going to incline 
that agency to be more cooperative? Not to mention that same 
applicant may have other applications on other projects pending 
before that same agency.
    Mr. Whitfield. You had mentioned this GAO report, I believe 
it was in your testimony, but it basically said that the 
average length of time on one of these pipeline certificates is 
like 5 years, I believe.
    Mr. Santa. It was 558 days.
    Mr. Whitfield. 558. The 5 years, I guess, was the pre-
filing and the other agency permits and so forth.
    Mr. Santa. Yes, sir. Yes, I think it was if you took into 
account the time from project inception, the pre-filing 
process----
    Mr. Whitfield. Right.
    Mr. Santa [continuing]. The FERC process, the other 
permits----
    Mr. Whitfield. Right.
    Mr. Santa [continuing]. And construction, the 5-year period 
is----
    Mr. Whitfield. Yes.
    Mr. Santa [continuing]. A reasonable estimate.
    Mr. Whitfield. Yes. And I point that out just because it 
does appear that there is an issue here. I mean some people are 
indicating that they don't think there is an issue, and that is 
why we have these hearings to hear all sides.
    So my time has expired. At this time, recognize the 
gentleman from Illinois for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman.
    Ms. Elefant, as a former FERC lawyer, do you believe that 
requiring other agencies to defer to FERC on the scope of 
environmental review would help expedite the natural gas 
permitting process and leading to fewer or more lawsuits, and 
are FERC's staff equipped to determine the scope of 
environmental review over and above the experts in other 
agencies with jurisdiction over these issues?
    Ms. Elefant. I don't think that it would expedite anything. 
The problem is when you are looking at the scope of 
environmental review, it relates to what the agency's mandate 
is. So, for example, I have seen cases where FERC has 
determined, for example, that it will not consider cumulative 
impacts related to fracking because that is something that FERC 
has determined is not causally connected to pipeline 
certification. And that is a decision that has been affirmed by 
the Second Circuit. There are other state or federal agencies 
for which this issue of fracking is more closely related to 
their mandate, so they might consider that within the scope of 
the issues they address when they are granting a permit. Unless 
you change the underlying regulatory mandate of those related 
state and federal agencies, that is the only way you can 
eliminate consideration of those issues. They look at different 
issues, that is why they are different agencies and they have 
different mandates.
    Mr. Rush. Yes.
    Mr. Roos-Collins, I know that you are not an agency expert 
on how this bill would impact commercially mandated 
environmental protection laws, but I don't see anybody else on 
the panel who is an agency expert either, nor did I see anyone 
on the previous panel who is an agency expert, but I just want 
to get your opinion, if I could. How would this bill impact 
issues relevant to the Department of Commerce, Department of 
the Interior, and the Department of Agriculture who are the 
very agencies that are responsible for protecting water 
quality, America's fishways, federal reservations, and other of 
our nation's natural resources? Can you give me an opinion on 
that?
    Mr. Roos-Collins. I do. The discussion draft would transfer 
much of the authority to FERC. And I will leave aside pre-
licensing, which is what our testimony has addressed. Let me 
briefly mention post-licensing. The opening page of the 
discussion draft provides that FERC will have exclusive 
authority to administer a license----
    Mr. Rush. Yes.
    Mr. Roos-Collins [continuing]. Which is to say that it will 
have exclusive authority to administer those terms of a license 
that derive from a water quality certification. That is 
trouble, in terms of actually protecting the beneficial uses of 
our waters. And to be clear, Ranking Minority Member, I believe 
that FERC is a very capable federal agency.
    Mr. Rush. Yes.
    Mr. Roos-Collins. I respect Ms. Miles and her staff. They 
are competent. This is not about competency; it is about on-
the-ground knowledge. In a typical proceeding, FERC staff will 
visit the project a few days. By contrast, the staff for the 
State Water Agency, or for the Fish and Wildlife Service and 
NIPS, or the Forest Service, will have walked those grounds 
dozens, if not hundreds of times. That on-the-ground knowledge 
is what Congress respected in the 1935 Federal Power Act, which 
delegated to them limited authorities to use that knowledge to 
protect certain resources.
    Mr. Rush. Well, it seems to me as though, Mr. Roos-Collins, 
that we are at a position that the question--when shifting the 
responsibility for holding trial-type hearings on any disputed 
issue of material fact from the secretaries of the same 
departments, Interior, Agriculture, or Commerce, to FERC, would 
that, in your opinion, do anything to expedite or will it be 
akin to a rat running around a maze, no way out, in terms of 
the permitting process, would this help us at all expedite?
    Mr. Roos-Collins. My opinion is that it would not expedite, 
and it--indeed, it could delay.
    And if I might give one brief example. The National Marine 
Fishery Services uses administrative law judges assigned from 
the Coast Guard. Those judges conduct a trial as though they 
were onboard a ship. At a pretrial conference, they once looked 
at the attorneys and they said, you have pending motions, if 
you argue those motions I will cut you off, and if I cut you 
off I will probably rule against you. You want to argue on the 
motions? And, of course, all of the parties said no. Well, that 
pretrial conference was over in 15 minutes.
    My experience with the judges assigned by Interior and 
Commerce and Agriculture is that they are tough and fair, and 
as a result, I don't think moving this to FERC would expedite 
decisions.
    Mr. Rush. Mr. Chairman, I yield back.
    Mr. Whitfield. At this time, recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. Appreciate it.
    Mr. Santa, I believe you may have heard my questions with 
the prior panel, and so you know that I am concerned about 
placement of gas pipelines, but I want to talk to you about the 
need for gas pipelines because that is the driving force behind 
all of this, particularly in those areas that have relied on 
coal to produce their electricity. With the myriad of different 
regulations that the EPA has proposed, many of those power 
generating companies, the electric company as we know it back 
home, are having to turn to natural gas, isn't that true?
    Mr. Santa. Yes, sir, that is true.
    Mr. Griffith. And as a result of that, and looking forward 
at the impact of the closing of many coal-fired power electric 
generation units, many of those, particularly in the Southeast 
and the East, are looking at using natural gas instead, isn't 
that also true?
    Mr. Santa. That is correct, sir.
    Mr. Griffith. And as a result of that, there are some 
serious concerns across the industry that if the natural gas 
pipelines are not built in a quick manner, or brought to bear 
fairly soon, we will have a problem with either rolling 
brownouts or possibly even blackouts in many parts of the East 
and Southwest, is that not also true?
    Mr. Santa. Many parties have expressed that in connection 
with the Clean Power Plan. We are confident that gas and gas 
pipelines ultimately can meet that need, but INGAA too, in our 
comments on the Clean Power Plan and at the FERC technical 
conferences noted the timing issues in terms of the time needed 
to develop infrastructure versus the compliance deadlines.
    Mr. Griffith. And, of course, it is one of the reasons why 
I support legislation that would cut the Clean Power Plan off 
until the litigation is over because it is going to create huge 
problems for electric generation companies across the United 
States, but particularly in the Southeast and the East. And I 
have serious questions about the legality of the EPA's 
interpretation--I should say their new interpretation, not 
their original interpretation of Section 111(d). And so that is 
one of the big drivers and the reason that right now there are 
as many as four, I know of at least two, a third that I have 
heard about, and a fourth that has been indicated in an article 
today, looking at gas pipelines in my region, and that is what 
is driving all of this, isn't that what you would indicate to 
us?
    Mr. Santa. It is a significant driver. There is also 
industrial demand that is part of the demand for those 
pipelines.
    Mr. Griffith. Well, and the natural gas pipeline--the 
natural gas price being low is a factor to be considered in 
that, and that is what is driving that new manufacturing demand 
as well, isn't it?
    Mr. Santa. That is correct, sir, yes.
    Mr. Griffith. And so if we are going to have more good-
paying jobs, if we are going to have electricity in our homes, 
whether I agree with the EPA's regulations or not, we are going 
to need natural gas pipelines, isn't that correct?
    Mr. Santa. Yes, sir.
    Mr. Griffith. Now, that being said, how can we do this in a 
better fashion because--and I would submit one of those would 
be to give a better timeline on the EPA regulations, if they 
are found legal, which I don't think they will be, but what can 
we do to do a better job, because the decision on the ground 
suddenly has folks in their yard trying to figure out where 
they are going to place a pipeline, and one month it is in one 
county, and the next month it is in another county. And it has 
really got a lot of folks, I think, legitimately upset that 
they are about to lose their family farm or their home, or 
their area of concern, nearby them. And how can we allay those 
fears for the general public?
    Mr. Santa. You are right that this does acutely affect 
landowners, it affects their major investment, their home, 
their farm, their property. It also is occasioned by the fact 
that we have prolific gas supplies in places that, at least in 
recent history, haven't been prolific supply areas, and so it 
has created the demand for more pipelines to get that to the 
market. I think that overall, the FERC does a very good job 
with its process. I know that INGAA and its member companies 
are committed to this because, beyond going through the 
construction and siting process, these landowners will be our 
neighbors for years. I think that the legislation today is 
intended to try to make that process more efficient and yet 
still respect the rights of landowners and environmental 
concerns, and also as part of the Administrations' Quadrennial 
Energy Review, the first installment focused on infrastructure, 
they focused on improving the permitting process.
    Mr. Griffith. And I am assuming that my region is not alone 
in having a number of proposals being made because we are going 
to have to move a lot of gas around the country. And of course, 
we had the Governor of Maine in here, requesting that we 
facilitate that somehow to get the gas to them, or to allow 
them to hook-up to electricity either at the hydro side or from 
Canada.
    Ms. Elefant, do you think FERC is equipped to take a look 
at the big picture and decide if they need to have two, three, 
or four pipelines passing through the western part of Virginia?
    Ms. Elefant. I think at some point somebody has to take a 
look at the big picture. The Natural Gas Act, although it is 
not imbued with the same public interest standard as the 
Federal Power Act governing hydro, does issue certificates for 
public necessity and convenience. If you look at the history of 
the Act in some of the older cases, FERC or the Federal Power 
Commission played a larger role, and they would look to see if 
there was a need for three or four pipelines, and try to take a 
programmatic view of what the public need was. In addition to 
development of multiple pipelines, there are other ways to 
increase efficiencies of existing pipelines to capture 
additional natural gas. FERC, in fact, just last month, 
implemented a policy which would incentivize existing pipeline 
developers to address leaks in the pipeline. And there was a 
study shown recently in the Boston area that if you could 
capture all that leakage, you could increase the pipeline 
capacity by almost 30 percent. So I think that in addition to 
looking at just building more, we need to take a more robust 
approach and also look at some creative solutions, for example, 
making pipelines safer and addressing leaks, which is really a 
win-win for everybody, including the pipeline, which gets 
incentive payments to do that.
    Mr. Griffith. My time is up. I yield back, Mr. Chairman.
    Mr. Whitfield. Gentleman's time is up.
    At this time, recognize the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. And I want to 
welcome Mr. Livingston here to the committee this afternoon, 
now.
    PG&E has done a lot of creative things with respect to the 
grid, and it has taken a lot of steps in terms of pipeline 
safety and leakage, so I want to make sure you get credit for 
that.
    Are there particular federal agencies that are having 
trouble coming to the table on the hydro issue in a timely 
manner?
    Mr. Livingston. I think each of the agencies, they have 
very dedicated folks and they are doing their best, but in a 
lot of cases, what we are looking at is agencies that have 
single or a few resource focus. Right? So if you are working in 
the water area or around land, or in other issues on fish, the 
same thing with some of the other stakeholders in this who 
might be interested in recreation or fishing, and it is really 
all of that coming together. What one agency versus another one 
would do as far as a prescription is--might interfere with 
what--another one. So the real point is trying to come together 
in a way that there is a decision-maker, there is one set of 
decisions. So it is not one particular agency, it is when we 
have sequential decision-making going on and having an agency 
that can balance all the beneficial uses, and right now the 
only federal agency in the hydrospace that has that in statute 
is FERC.
    Mr. McNerney. Are problems with regard to timing and 
responsiveness exacerbated by the drought in California now?
    Mr. Livingston. Sure. I think, particularly since we are in 
the fourth year of drought, and with the Governor making sure 
that we are taking decisive action on that. There is a lot of 
focus on trying to deal with the issues associated with water 
supply in the state, and many of the same folks and many of the 
same agencies are devoting their focus, rightly so, to that, 
and that does recently have an impact on----
    Mr. McNerney. OK.
    Mr. Livingston [continuing]. Agency timing and so on.
    Mr. McNerney. Mr. Santa, you indicated in your testimony 
that a number of reasons for potential delays to permits, 
including lack of agency resources, which I am sort of getting 
from Mr. Livingston as well, cooperation with FERC and 
applications being deemed incomplete. Could you talk a little 
bit about the cooperation with FERC? I am not sure what that 
means.
    Mr. Santa. I think that I would have to go back and look 
specifically at the report, but I think it gets to the issue 
of--and a lot of what is attempted to be addressed in the 
discussion draft, of other permitting agencies being involved 
early in the process with the FERC in working cooperatively. 
For example, there have been some instances where agencies will 
not begin their process until some other action has been taken. 
So rather than things occurring concurrently, they may occur 
sequentially. That adds to the time.
    Mr. McNerney. Yes.
    Mr. Santa. I think it was trying to address things like 
that.
    Mr. McNerney. OK. Thank you. Do you think there is a chance 
that if this law or this bill were passed and enacted into law, 
that it would make delays longer or give rejections of 
applications because the agency didn't have time to complete 
the study?
    Mr. Santa. Well, two things. Number one, Ms. Miles, I 
think, had some good comments on the draft where she noted that 
there were parts of it that could be interpreted to inhibit 
FERC's ability to try to resolve some of these things earlier 
in the process, rather than later. And I would certainly 
commend the subcommittee to take a look at that and see if that 
could be addressed.
    The issue of whether it might lead to rejections as the way 
for the agency to act, that is actually something that we 
talked about last year at a hearing in conjunction with Mr. 
Pompeo's legislation. I know that concern was expressed. And I 
think on behalf of INGAA's members, we made the point that, 
quite frankly, we would prefer the definite answer, even if it 
is a negative answer, to be engaged in a protracted process of 
waiting for an answer.
    Mr. McNerney. Well, I think what you have indicated is 
there have been increases in federal authorization that failed 
to meet the 90-day deadline. Do you think that is because there 
are more applicants, because there are more projects being 
approved, because there is more capacity being approved in the 
process?
    Mr. Santa. That is a good question. I don't know. The one 
thing I would say is that the study that we pointed to in our 
testimony was released in, I believe, 2012, so it dealt with 
projects that were 2012 and earlier. That was before really the 
wave of projects and infrastructure we have seen proposed in 
response to the shale revolution and all of the new supply 
coming to the market. So I am not sure that those delays really 
had to do with the number of projects being proposed to the 
agencies, but that is a good question.
    Mr. McNerney. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. Gentleman's time has expired.
    I have a couple of other questions I would like to ask, and 
if any of you all want to ask any others, fine. But, Mr. John 
Collins, one question I want to ask you is, do you think 
hydropower is disadvantaged by this current regulatory process?
    Mr. Collins. Yes, I do. I believe that the time it takes to 
license and the expense of licensing new hydropower or 
relicensing hydropower puts it at a distinct disadvantage 
relative to other renewable technologies.
    Mr. Whitfield. Yes, I mentioned in my opening statement 
that there are certain renewables like wind and solar that get 
precedence, that get preferential treatment, and are even 
exempted from some federal laws. But OK, I just wanted to 
clarify that.
    And then, Mr. Suloway, and maybe Mr. Roos-Collins might 
want to comment on this as well, but you stated that other 
federal resource agencies have the authority to impose 
mandatory environmental conditions on the FERC license, and 
that that seems to contribute to delay and additional cost. Am 
I reading something into your statement, or is that accurate 
what I have said that you believe?
    Mr. Suloway. No, they do employ mandatory conditions that 
do increase the cost of owning a FERC license. That----
    Mr. Whitfield. OK.
    Mr. Suloway. That is a fact.
    Mr. Whitfield. Do you want to make a comment on that, Mr. 
Collins--Roos-Collins? I mean you don't have to, I was just----
    Mr. Roos-Collins. Mr. Chairman, yes, the license articles 
required by other federal agencies have increased cost in terms 
of implementation. The question that we ask is, are the 
benefits worth the cost? And so to take New York Power 
Authority's St. Lawrence FDR Project as a for instance, the 
federal and state agencies alike use these very authorities 
through settlement. I dare say that the result for the power 
authority may have been more expensive than what would have 
happened if FERC had exclusive authority.
    Mr. Whitfield. Right.
    Mr. Roos-Collins. I think it is also fair to say that the 
benefits----
    Mr. Whitfield. Yes. Yes.
    Mr. Roos-Collins [continuing]. Were significant.
    Mr. Whitfield. Yes, well, I think that is important because 
sometimes there are additional costs, but maybe the benefits 
outweigh that. But also let me ask this question. Do these 
mandatory conditioning authority of other federal resource 
agencies frustrate FERC's ability to balance or modify the 
public interest? Do any of you have a thought on that?
    Mr. Livingston. I don't think anyone disputes the rights of 
a federal agency to prescribe what happens on its land. I think 
part of the question goes how far does that authority go? 
Should it apply to neighboring lands, should it apply to 
private lands, should it apply to lands that are far away and 
have no clear nexus? So I think it is really getting down to 
having Congress define the extent of where that authority goes 
and how it is used, rather than any recognition that they don't 
have the right to prescribe how somebody who is a guest on 
their land should treat the land. And I think we all agree with 
that. It is just----
    Mr. Whitfield. OK.
    Mr. Livingston [continuing]. A matter of extent and where.
    Mr. Whitfield. OK. Well, thank you.
    Mr. Green is recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I apologize. Typically, 
on a Wednesday up here, there are so many issues going on and 
so many hearings.
    Ms. Elefant, you mentioned in your testimony that you are 
not aware of any federal agency that allows a trump card. In 
the LNG export permitting process, FERC requires the bulk of 
the NEPA analysis with nothing but a concurrence from the DOE. 
Why is deference to FERC not acceptable?
    Ms. Elefant. Well, I think that the provision with 
deference to DOE doesn't necessarily have to do with the 
resource review. The LNG review authority still expressly 
preserves the power of states to issue permits under the Clean 
Water Act, the Clean Air Act, and the Coastal Zone Management 
Act, and so I think that that statutes have such unique 
relationship to protecting those resources and having sort of 
an established procedure that deferring to FERC could encroach 
on the policies that were intended to be protected by those 
other laws.
    Mr. Green. Well, what we are trying to do is get more 
coordination between the federal agencies, but you mentioned 
also that you are concerned about public participation. Would a 
30-day notice and comment period regarding issue resolution 
alleviate some of those concerns?
    Ms. Elefant. I think that the provision related to issue 
resolution, I have said I didn't think that something like that 
was necessary because there are multiple opportunities for 
issues to currently be resolved. For example, in one case that 
I have that I think would be accurately characterized as a 
delay case, the state agency and the Corps of Engineers, very 
early in the pre-filing process and again in the application 
process, expressed some concerns and reservations about where 
the project was going to go, and also asked for additional 
information on certain resources. And it seemed to me that 
there were many opportunities to resolve those along the way 
rather than have it be done in this pressured 30-day period, 
like the statute prescribes. There are still opportunities for 
the agencies to cooperate, and that does happen from time to 
time.
    Mr. Green. Well, and I know the pre-filing work, I don't 
know if we have exhausted the success of that, but that is a 
goal to do it, to get the Corps and different agencies together 
so the applicant will know what the problem is and can deal 
with that early on, and so that is our goal, I guess.
    Mr. Santa, in your testimony, you state that challenging a 
permitting agency's tardiness or inaction is time-consuming and 
risky. Where do most companies focus on their challenges? Is it 
a state agency or a federal agency?
    Mr. Santa. It varies because in some instances, it is a 
state agency acting pursuant to delegated federal authority.
    Mr. Green. Yes.
    Mr. Santa. For example, I think in both of the cases where 
pipelines have availed themselves of the judicial review 
provisions, they have been challenging state agency actions.
    Mr. Green. What state would that be?
    Mr. Santa. I believe one of them was Connecticut, and I 
believe the other one was Maryland.
    Ms. Elefant. Maryland was a delay case.
    Mr. Green. OK. So it depends on the area, I guess.
    Mr. Santa. That is correct, yes.
    Mr. Green. I was wondering if that was a problem with 
Texas. OK. Would arbitration better serve that approval 
process?
    Mr. Santa. I really don't know. That is an interesting 
question, Mr. Green, as to whether or not that would be 
something that might work. I think that the provisions that are 
in the draft now in terms of a dispute resolution process, I 
think are intended to kind of go in the direction of how do we 
resolve these disputes. I have not heard of arbitration being 
suggested before in the context of a permitting agency, an 
applicant, and the other stakeholders.
    Mr. Green. Right. That would get you to a decision though.
    Mr. Santa. That is correct.
    Mr. Green. And that is the problem.
    Mr. Santa. Yes.
    Mr. Green. The time frame keeps getting extended because 
the decision is not there.
    Mr. Santa. Yes.
    Mr. Green. Isn't that the role though for the pre-filing 
review is to try and get that information out before during the 
pre-filing?
    Mr. Santa. I think that is the goal of the pre-filing is to 
try to get these issues on the table early to begin to resolve 
them, and also to deal with them in a context before you have 
got a FERC application, in which case the ex parte rules and 
various things come to attach that tend to make it more 
cumbersome and more difficult to resolve. So yes.
    Mr. Green. OK. Well, Mr. Chairman, I have run out of time, 
but I appreciate it. But I also know that in the--because 
obviously, where I come from, the LNG exporting permits are an 
issue, and it is not necessarily FERC, it is also DOE. And I 
said it earlier, the Corpus Christie permitting for both FERC 
but also with DOE was very quick, and--comparatively, but 
obviously, we have a whole bunch more in line because most of 
those permits will probably come from Louisiana and Texas 
instead of the east or west coast.
    Thank you, Mr. Chairman.
    Mr. Whitfield. You are welcome.
    Recognize Mr. Rush.
    Mr. Rush. Mr. Chairman. Thank you, Mr. Chairman. Mr. 
Chairman, the Ranking Member Pallone asked this question of the 
previous panel, and I want to ask Mr. Roos-Collins the same 
question.
    Mr. Roos-Collins, buried in the language of the draft is a 
two-word change to Section 4(e) of the Federal Power Act. The 
words on the existing statute ``shall deem'' are replaced by 
the single word ``determines''. The context of this change is 
mandatory conditioning authority of the resource agencies.
    I have three questions. Is this a significant change from 
current law? What would be the practical effect of this change 
on the ability of resource agencies to protect and manage 
things under their jurisdiction? And lastly, will this change 
result in more or less litigation, in your opinion?
    Mr. Roos-Collins. In my opinion, the change in those two 
words is not significant, and here is why. I think the intent 
of the discussion draft is to change from a verb, deem, that 
has lots of discretion to determine, which sounds like it must 
be more rational and based in the record. That is what these 
agencies already must do. There is a case called Bangor Hydro, 
decided by the D.C. Circuit in 1996, that expressly held that a 
federal agency cannot have a field of dreams justification for 
a condition; it must have a rational basis and state a specific 
goal. And so with respect to those two words, what I see is an 
intent to recognize the holding of that case, and similar cases 
that followed.
    Mr. Rush. Thank you. Mr. Chairman, thank you so much.
    Mr. Whitfield. Well, that concludes the questions, and 
concludes the hearing. And once again, I want to thank all of 
you for taking your time and coming and sharing your views and 
experiences with us. We look forward to working with all of you 
as we move forward trying to develop an overall energy package.
    And we will keep the record open for 10 days. And I would 
like to ask unanimous consent that the following statements and 
letters be submitted for the record. A letter from the Edison 
Electric Institute in support of the hydropower regulatory 
modernization discussion draft, and second, a statement from 
the American Public Power Association in support of both the 
natural gas pipeline permitting reform and hydropower 
regulatory modernization discussion drafts.
    Voice. Without objection.
    Mr. Whitfield. Without objection, so entered.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. And thank you all once again.
    And that will conclude today's hearing.
    [Whereupon, at 1:08 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    The work on our bipartisan energy legislation continues, 
and to date the areas of agreement have significantly 
outweighed the areas of disagreement. I expect that trend to 
continue today as the subcommittee addresses two key topics, 
hydropower and natural gas pipelines, where I believe there is 
common ground on the direction the nation should be taking.
    The Department of Energy's Quadrennial Energy Review (QER) 
set the stage by highlighting the transformative potential of 
American energy as well as the need for permitting reform in 
order for that potential to be realized. The administration's 
report noted the economic, energy security, and environmental 
benefits of energy sources like hydropower and natural gas, 
particularly when it is efficiently delivered through modern 
infrastructure. The QER recommended changes to existing 
policies in order to achieve these goals, and I believe the two 
discussion drafts today fit in well with the message from the 
administration.
    Hydropower and natural gas are both critical sources of 
energy and jobs in Michigan and across the country, but the 
federal process of licensing hydroelectric facilities and 
permitting interstate gas pipelines has grown far more 
cumbersome than necessary. The discussion drafts clear away the 
red tape and add increasing amounts of transparency so all 
stakeholders are aware of the process, which will help to pave 
the way for additional needed energy from these sources.
    Both discussion drafts place the Federal Energy Regulatory 
Commission (FERC) in charge, and require it to set clear 
deadlines that all other agencies involved must meet. The end 
result is a more timely and certain permitting process for 
hydroelectric power and gas pipeline approvals. At the same 
time, all environmental and public safety provisions are left 
intact.
    There will surely be points of debate, but I am also sure 
that we will be able to achieve resolution to most differences. 
That is what is what these hearings are for, and I look forward 
to continued progress on our energy bill.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
